<html>
<title> - S. Hrg. 106-229 POLITICAL/MILITARY DEVELOPMENTS IN INDIA</title>
<body><pre>[Senate Hearing 106-229]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 106-229

                POLITICAL/MILITARY DEVELOPMENTS IN INDIA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 59-863 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Cohen, Stephen P., senior fellow, Foreign Policy Studies, the 
  Brookings Institution..........................................    24
    Prepared statement of........................................    27
Inderfurth, Hon. Karl Frederick, Assistant Secretary of State for 
  South Asian Affairs, Department of State.......................     2
    Prepared statement of........................................     6
Responses of Assistant Secretary Karl F. Inderfurth to additional 
  questions submitted by Senator Brownback.......................    14
Wisner, Hon. Frank G., vice chairman, external affairs, American 
  International Group, Inc.......................................    16
    Prepared statement of........................................    20

                                 (iii)



                POLITICAL/MILITARY DEVELOPMENTS IN INDIA

                              ----------                              


                         TUESDAY, MAY 25, 1999

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                               South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-562, Dirksen Senate Office Building, the Hon. Sam 
Brownback (chairman of the subcommittee) presiding.
    Present: Senators Brownback and Sarbanes.
    Senator Brownback. Thank you all for joining us this 
morning.
    I understand Paul Wellstone, Senator Wellstone may be 
coming shortly, but his office has agreed that we go ahead and 
get the hearing started since we are past the appointed hour.
    I want to thank you all for coming to the hearing this 
morning on the latest political and military developments in 
India.
    It was a year ago that we planned to hold a hearing on this 
topic and wound up instead discussing the ramifications of the 
nuclear tests conducted by both India and Pakistan. As you 
know, these tests led to the immediate imposition of unilateral 
sanctions mandated by the Glenn amendment. While they are not 
the main topic of this hearing, I hope we will also cover where 
we stand today with regard to those sanctions.
    Today's headlines are screaming about the failures in our 
understanding of China's foreign policy goals and intentions. 
It is ironic that for the past decade, much of America's 
foreign policy in Asia has focused almost single-mindedly on 
China, while we have largely ignored India.
    The administration has favored rewarding China. Successive 
administrations have favored rewarding China, a country that 
has openly and continually challenged the U.S.'s interests and 
values, while first ignoring and now punishing India.
    The administration's rationale has been that the United 
States must engage China because of its large population, its 
growing market for U.S. investment and its nuclear capability 
and modern military force.
    I am frustrated by the double standard that appears to 
apply to the region; United States pandering to China, the 
world's largest authoritarian state, and punishes India, the 
world's largest democracy, which not only shares our basic 
values, but also has enormous potential as a strategic partner 
in the region.
    It is my belief that the United States has real and 
legitimate political, economic and security interests in India, 
and we need to understand and engage with India on all levels 
as soon as possible.
    Seizing the opportunity that we have to build greater ties 
with India should be one of our main foreign policy goals.
    We are after all the two most populous democratic nations 
in the world. The relationship should be based on shared values 
and institutions, economic collaboration, including enhanced 
trade and investment, and the goal of regional stability across 
Asia.
    Now, last June, the Senate passed legislation giving the 
President authority to waive economic sanctions on India and 
Pakistan. Since that time, however, we have moved forward. They 
have had, I think, good progress on that; although, I am 
troubled that now the administration appears to be more engaged 
in what I believe to be too much a single issue diplomacy with 
both India and Pakistan in an effort to pressure these two 
democracies to conform to benchmarks laid out by the 
administration.
    Example, the ratification of CTBT: We seemed to have 
narrowed our relationship with India to this one issue. And we 
should not do that.
    While security concerns are a vital issue, I do not believe 
they should be the only issue on which we deal with a country 
which is the largest democracy in the world. And certainly, we 
should not be putting all our eggs in the CTBT basket. After 
all, it is not even certain this treaty will be ratified in the 
U.S. Senate.
    It is important to try to get both India and Pakistan to 
get their nuclear programs in line with international norms. It 
should not be the only issue.
    Recent events in India have demonstrated the vitality of 
its democracy, and I look forward to hearing our witnesses' 
views on the current political situation in India and where 
this country is headed.
    We have got several excellent presenters today. The first 
will be the Honorable Karl Frederick Inderfurth, Assistance 
Secretary of State for South Asian Affairs.
    And we have a second panel of the Honorable Frank Wisner 
and Mr. Stephen P. Cohen.
    I do look forward to being joined by my colleagues, and I 
look forward to a lively discussion on where the U.S./India 
relationship shall go.
    Mr. Inderfurth, welcome again to the committee. We are 
always delighted to have you here. And the floor is yours.

    STATEMENT OF HON. KARL FREDERICK INDERFURTH, ASSISTANCE 
SECRETARY OF STATE FOR SOUTH ASIAN AFFAIRS, DEPARTMENT OF STATE

    Secretary Inderfurth. Mr. Chairman, thank you very much for 
this opportunity to discuss today our view of recent political 
developments in India. And the----
    Senator Brownback. Mr. Secretary, if you could pull that 
microphone a little closer to you?
    Secretary Inderfurth. Closer?
    Senator Brownback. Yes.
    Secretary Inderfurth. And also discuss our vision of what 
we would like to see our relationship with India become. I 
might say that I believe that our visions are quite similar 
about the relationship that we would like to have with India in 
the years to come, and I look forward to discussing that with 
you. And also I am sure you will be well informed by Ambassador 
Wisner and Mr. Cohen as they come after me.
    I want to thank you and Senator Wellstone for your 
continued interest in this critical region.
    I would also like to take this opportunity this morning to 
call attention to the departure of George Pickart, who is with 
me this morning, from the South Asia Bureau. As you know, 
George was a valuable member of the Foreign Relations Committee 
staff before coming to the South Asia Bureau 3 years ago as 
senior advisor.
    He has done extraordinary work for us on economic issues, 
the environment, human rights and outreached to the U.S. 
business community and the South Asian-American community. He 
has also kept us in very close touch with Capitol Hill.
    He has decided, however, to depart, take a position in the 
private sector. I wanted to take this opportunity to wish him 
well and great success and to let him know that he will be 
missed.
    Senator Brownback. Thank you very much for your service, 
George, and Godspeed to you in your new career.
    Secretary Inderfurth. Mr. Chairman, India----
    Senator Brownback. Mr. Secretary, let us get that 
microphone again close to you. I see people kind of straining 
behind you. And I--we have to get better equipment up here.
    Secretary Inderfurth. A person that used to make my living 
as a broadcaster, I am somewhat chagrined that I have to be 
told to--to speak up, but I will bring the mike closer.
    Mr. Chairman, India is one of the world's most intense 
democracies. Its adherence to democratic rules was demonstrated 
in recent developments in India.
    Prime Minister Vajpayee followed President Narayanan's 
recommendation for a vote of confidence when his coalition 
government lost the support of a key ally.
    He subsequently resigned when he lost that vote of 
confidence by one vote. When it became apparent that no party 
could put together a parliamentary majority, President 
Narayanan dissolved Parliament and ordered the Independent 
Election Commission to set the dates for new parliamentary 
elections. He also asked Prime Minister Vajpayee to remain in a 
caretaker capacity until a new parliament is sworn in.
    The election commission has announced that elections will 
take place over several days in September and early October; 
and a new government should be in place by mid-October.
    Mr. Chairman, the coming elections will be India's third. 
And the next government will be India's sixth within a 3-year 
period.
    India has had seven governments since 1989. These rapid 
changes in government are a sign of major shifts in the social 
basis of Indian politics, but they also indicate the 
fundamental soundness of the institutions of governance: The 
Parliament, the presidency, the judiciary and, above all, the 
Indian Constitution.
    Mr. Chairman, I might add that the rise of coalition 
politics in India has coincided with the growing assertiveness 
of groups formerly at the bottom of the socio-economic ladder.
    Disadvantaged groups have learned that numbers count in a 
democracy and they have forced the major political parties to 
pay attention to their interests. When established political 
parties fell short of expectations, these groups have started 
their own political parties.
    One of the most persistent demands has been an expansion of 
India's policy of giving preferential treatment to the 
country's most disadvantaged groups.
    Inscribed in India's Constitution is a quota system for 
society's most dispossessed, the Dalits. There are pressures to 
expand the notion of quotas even further, and that includes 
special provisions for the guaranteed representation of women 
at all levels of the political system.
    The New York Times had an excellent front page article on 
May 3 by Celia Dugger about a low caste woman who occupied the 
highest elective position in a small village in India's largest 
state.
    She and thousands of women like her across this vast 
country are paving the way for a further transformation of 
Indian society.
    Mr. Chairman, with this devolution and diffusion of 
political power, it becomes imperative that we maintain close 
contacts with all the major political parties in India to 
ensure that our message is fully understood and our interests 
effectively pursued.
    Ambassador Celeste and his predecessors have led our 
mission in India in pursuing this goal. And we are well served 
by the presence of three consulates in the other major regions 
of the country, which focus on regional trends and issues.
    I and other Department officials have taken care to meet 
with leaders of Congress and other opposition parties on trips 
out to the field.
    Deputy Secretary Talbott has consulted with the head of the 
Congress Party, Sonia Gandhi, and other national leaders, 
including former Prime Minister Gujaral during his visits to 
Delhi in the course of his 11-month-old security dialog with 
Foreign Minister Jaswant Singh.
    I am confident that whatever government emerges from the 
current political process, we will be well prepared to engage 
immediately. More to the point, we will work with any 
government that emerges on the many important items on our 
agenda with India.
    Obviously, non-proliferation is currently our central 
concern. Our dialog over the past 11 months has been dominated 
by the global reaction to India's and then Pakistan's nuclear 
tests.
    While there is still much to do in that area to enable us 
to restore the bilateral relationship we had in May 1998--that 
is, before the nuclear tests and the imposition of Glenn 
sanctions--we still hope that we will be able to carry out 
President Clinton's goal set in 1997 to deepen our engagement 
with India and establish the broad-based relationship, I 
believe, we both seek and clearly you want us to have.
    In this regard, Prime Minister Vajpayee in New York last 
fall called attention to his belief that the United States and 
India were ``natural allies.'' We should strive to realize that 
goal rather than remain what one scholar accurately described 
as ``estranged democracies.''
    Whether we are able in the coming years to consolidate our 
natural affinity or remain stuck in old negative patterns will 
be determined by the actions of both our governments.
    Because we remain convinced that the vision we articulated 
and the broad interests we identified are still valid and worth 
pursuing, we will not be found lacking in our efforts to seek a 
common approach with India on the great issues of the day.
    Mr. Chairman, I should stress that since the time of 
India's nuclear tests, our two countries have made progress 
toward understanding each other's security considerations, but 
we have yet to see the concrete actions taken that would help 
us to reconcile our differences.
    We regretted the decision last month by India to test an 
extended range version of the Agni ballistic missile. While we 
have a much better understanding after eight rounds of dialog 
of what motivates India's strategic thinking, our concern about 
further missile tests by India and Pakistan remains.
    We nevertheless will seek to use the solid foundation we 
have established in the dialog to continue exchanges with 
whatever future government emerges.
    It is our hope that we will be able to build on the work in 
this area we have done thus far, and to continue to make 
progress toward harmonizing our security concerns, to borrow a 
phrase from Foreign Minister Jaswant Singh. This new 
relationship, we believe, will benefit all concerned.
    It is also our expectations that there will be continuity 
in the search for more stable and better relations between 
India and Pakistan.
    The recent Lahore Summit, in which the Indian and Pakistani 
Prime Ministers displayed both foresight and courage in 
establishing a framework for bilateral cooperation and 
reconciliation, received the enthusiastic support of millions 
of Indian and Pakistani citizens.
    Popular reaction to Lahore gives us the hope that any new 
Indian Government will see fit to carry this process forward.
    As President Clinton said in a statement shortly after the 
February meeting of the two prime ministers, and I quote, 
``South Asia, and indeed the entire world, will benefit if 
India and Pakistan promptly turn these commitments into 
concrete progress. We will continue our own efforts to work 
with India and Pakistan to promote progress in the region.''
    I would add that it is equally important that India and 
China engage on their own security concerns. In that respect, 
we are encouraged that these two nations, which are playing an 
important role on the world stage, have restarted their annual 
joint working group meetings to discuss border and other 
issues, which we hope will include broader security concerns.
    Prime Minister Singh had earlier indicated the possibility 
of traveling to China. We hope he or his successor will do so.
    We were also encouraged by Chinese Foreign Minister Tang's 
statement that Beijing was committed to seeking good relations 
with India into the new century.
    Mr. Chairman, in our public diplomacy since the May tests, 
we have sought to reach a broad audience, both in this country 
as well as in India and Pakistan, to explain the basis of our 
diplomacy toward these two countries.
    Deputy Secretary Talbott has given a number of interviews 
and speeches in this connection, and he has written articles on 
the U.S./Indian dialog that have been widely disseminated at 
home and abroad.
    I have also sought opportunities with the news media to lay 
out our thinking about South Asia and security.
    We have done so, Mr. Chairman, because we firmly believe 
that the steps we are asking India and Pakistan to take in the 
security and non-proliferation areas are not merely steps that 
serve our own policy interests, but are steps that will enhance 
and increase their security and well-being and of South Asia as 
a whole.
    Mr. Chairman, it is our hope, indeed our vision, that we 
will be able to move in the direction that both the United 
States and India desire.
    We look forward to the day when differences over security 
policy no longer dominate the bilateral dialog. We look forward 
to the kind of broad-based relationship that we enjoy with many 
other democracies; one in which we are deeply engaged on an 
agenda of economic growth and trade, science and technology 
cooperation, cultural and educational exchange, law enforcement 
and in many, many other areas.
    Our vision, Mr. Chairman, is not simply to return to the 
situation in which we found ourselves on May 10, 1998. We 
desire to raise our bilateral engagement to a new level of 
intensity, breadth and depth.
    As President Clinton has said, we want a new United States/
Indian relationship for the 21st century. And we would like to 
see that relationship begin as soon as possible.
    Thank you, Mr. Chairman. And I am ready to answer your 
questions and respond to the committee's inquiries.
    Senator Brownback. Thank you, Secretary Inderfurth for your 
comments, and thank you once again for coming in front of the 
committee.
    [The prepared statement of Secretary Inderfurth follows:]

             Prepared Statement of Hon. Karl F. Inderfurth

    Mr. Chairman, I am pleased for the opportunity to discuss with you 
and your colleagues today our view of recent political developments in 
India. I want to thank you and Senator Wellstone for your continued 
interest in this critical region.
                            indian democracy
    India is one of the world's most intense democracies. Some two 
thirds of the registered voters cast their ballots; dozens of political 
parties scattered across the ideological spectrum compete for the 
support of over 600 million voters; India's very free and very lively 
press devotes most of its attention to politics. Underneath the sound 
and furry of partisan politics in India is a firm foundation sustained 
by the strength of the institutions and traditions that permit people 
aggressively to advocate their views and push their interests.
    This adherence to rules was demonstrated in recent developments in 
India. Prime Minister Atal Behari Vajpayee followed the President's 
recommendation for a vote of confidence when his coalition government 
lost the support of a key ally; he subsequently resigned when he lost 
by one vote--270-269. When it became apparent that no party could put 
together a parliamentary majority, President Narayanan dissolved 
Parliament and ordered the independent Election Commission to set the 
dates for new parliamentary elections. He also asked Prime Minister 
Vajpayee to remain in a caretaker capacity until a new parliament is 
sworn in. The Election Commission has announced that elections will 
take place over several days in September and early October. A new 
government should be in place by mid-October.
    The coming elections will be India's third, and the next government 
will be India's sixth, within a three year period. India has had seven 
governments since 1989. The only one to serve its full five-year term 
in that period was that of Prime Minister Rao from 1991-1996. These 
rapid changes in government are a sign of major shifts in the social 
basis of Indian politics, but they also indicate the fundamental 
soundness of the institutions of governance:the parliament, the 
presidency, the judiciary and, above all, the Constitution. Throughout 
this period, the military has remained scrupulously outside the 
political process; the military has been firmly under civilian control 
since India's independence in 1947.
    The rise of coalition politics in India has coincided with the 
growing assertiveness of groups formerly at the bottom of the socio-
economic ladder. Disadvantaged groups have learned that numbers count 
in a democracy, and they have forced the major political parties to pay 
attention to their interests. When established political parties fell 
short of expectations, these groups have started their own political 
parties. One of their most persistent demands has been an expansion of 
India's policy of giving preferential treatment to the country's most 
disadvantaged groups. Inscribed in India's Constitution is a quota 
system for society's most dispossessed--the Dalits. There are pressures 
to expand the notion of quotas even further and that includes special 
provisions for the guaranteed representation of women at all levels of 
the political system. The New York Times had an excellent front page 
story on May 3 by Celia Dugger about a low caste woman who occupied the 
highest elective position in a small village in India's largest state. 
She and thousands of women like her across this vast country are paving 
the way for a further transformation of Indian society.
                           the u.s. response
    Mr. Chairman, with this devolution and diffusion of political 
power, it becomes imperative that we maintain close contacts with all 
the major political parties in India, to ensure that our message is 
fully understood and our interests effectively pursued. Ambassador 
Celeste and his predecessors have led our mission in India in pursuing 
this goal, and we are well served by the presence of three consulates 
in the other major regions of the country which focus on regional 
trends and issues. I and other Department officials have taken care to 
meet with leaders of Congress and other opposition parties on trips out 
to the field. Deputy Secretary Talbott has consulted with the head of 
the Congress Party, Sonia Gandhi, and other national leaders, including 
former Prime Minister I.K. Gujaral, during his visits to Delhi in the 
course of his eleven-month old security dialogue with Foreign Minister 
Jaswant Singh. I am confident that, whatever government emerges from 
the current political process, we will be well prepared to engage 
immediately.
    More to the point, we will work with any government that emerges on 
the many important items on our agenda with India. Obviously, non-
proliferation is currently our central concern. Our dialogue over the 
past eleven months has been dominated by the global reaction to 
India's--and then Pakistan's--nuclear tests. While there is still much 
work to do in that area to enable us to restore the bilateral 
relationship we had in May 1998, before the nuclear tests and the 
imposition of Glenn sanctions, we still hope that we will be able to 
carry out President's Clinton's goal set in 1997 to deepen our 
engagement and establish the broad-based relationship I believe we both 
seek.
    In this regard, Prime Minister Vajpayee in New York last fall 
called attention to his belief that the U.S. and India were ``natural 
allies.'' We should strive to realize that goal rather than remain what 
one scholar accurately described as ``estranged democracies.'' Whether 
we are able, in the coming years, to consolidate our natural affinity, 
or remain stuck in our old negative patterns, will be determined by the 
actions of both our governments. Because we remain convinced that the 
vision we articulated and the broad interests we identified are still 
valid and worth pursuing, we will not be found lacking in our efforts 
to seek a common approach with India on the great issues of the day.
                           security dialogues
    Mr. Chairman, I should stress that since the time of India's 
nuclear tests, our two countries have made progress toward 
understanding each other's security considerations, but we have yet to 
see the concrete actions taken that could help to reconcile our 
differences. We regretted the decision last month by India to test an 
extended range version of its Agni ballistic missile. While we have a 
much better understanding, after eight rounds of dialogue, of what 
motivates Indian strategic thinking, our concern about further missile 
tests by India and Pakistan remains. We nevertheless will seek to use 
the solid foundation we have established in the dialogue to continue 
exchanges with whatever future government emerges. It is our hope that 
we will be able to build on the work in this area we have done thus 
far, and to continue to make progress toward ``harmonizing'' our 
security concerns, to borrow a phrase from Foreign Minister Jaswant 
Singh. This new relationship will benefit all concerned.
    It is also our expectation that there will be continuity in the 
search for more stable and better relations between India and Pakistan. 
The recent Lahore Summit, in which the Indian and Pakistani Prime 
Ministers displayed both foresight and courage in establishing a 
framework for bilateral cooperation and reconciliation, received the 
enthusiastic support of millions of Indian and Pakistani citizens. 
Popular reaction to Lahore gives us the hope that any new Indian 
government will see fit to carry this process forward. As President 
Clinton said in a statement shortly after the February meeting of the 
two Prime Ministers, ``South Asia--and, indeed, the entire world--will 
benefit if India and Pakistan promptly turn these commitments into 
concrete progress. We will continue our own efforts to work with India 
and Pakistan to promote progress in the region.''
    I would add that it is equally important that India and China 
engage on their own security concerns. In that respect, we are 
encouraged that these two nations, which are playing an important role 
on the world stage, have restarted their annual Joint Working Group 
meetings to discuss border and other issues, which we hope will include 
broader security concerns. Foreign Minister Singh had earlier indicated 
the possibility of traveling to China; we hope he or his successor will 
do so. We were also encouraged by Chinese Foreign Minister Tang's 
statement that Beijing was committed to seeking good relations with 
India into the new century.
                              our message
    Mr. Chairman, in our own public diplomacy since the May tests, we 
have sought to reach a broad audience, both in this country as well as 
in India and Pakistan, to explain the basis of our diplomacy toward 
these two countries. Deputy Secretary Talbott has given a number of 
interviews and speeches in this connection, and he has written articles 
on the U.S.-Indian dialogue that have been widely disseminated at home 
and abroad. I have also sought opportunities with the news media to lay 
out our thinking about South Asia and security. We have done so, Mr. 
Chairman, because we firmly believe that the steps we are asking India 
and Pakistan to take in the security and nonproliferation areas are not 
merely steps that serve our own policy interests--we are also convinced 
they will enhance and increase the security and well-being of both 
countries, and of the South Asian region as a whole.
    Mr. Chairman, it is our hope--indeed our vision--that we will be 
able to move in the direction that both the United States and India 
desire. We look forward to the day when differences over security 
policy no longer dominate the bilateral dialogue. We look forward to 
the kind of broad-based relationship that we enjoy with many other 
democracies--one in which we are deeply engaged on an agenda of 
economic growth and trade, science and technology cooperation, cultural 
and educational exchange, law enforcement, and in many other areas. Our 
vision, Mr. Chairman, is not simply to return to the situation in which 
we found ourselves on May 10, 1998. We desire to raise our bilateral 
engagement to a new level of intensity, breadth and depth. As President 
Clinton has said, we want a new U.S.-India relationship for the 21st 
century.

    Senator Brownback. With the report out today on the Cox 
Commission and the breach of our security interests by the 
Chinese, it would seem to me critical that the administration 
in--in not only trying to stem the flow of technology to China, 
also try to engage much more aggressively and broadly with 
India to meet our security interests and to build a strategic 
relationship with India.
    I would--you have noted the President's comments. I would 
think he ought to get on the phone today with as high-level 
official as he could, even though India is in the middle of a 
transition in their government, and start to engage in this 
dialog of ``How do we broaden this United States/India 
relationship as an offset to what is taking place in China?''
    What were your thoughts on that, Mr. Secretary?
    Secretary Inderfurth. Mr. Chairman, we would rather not be 
in a position of choosing one or the other of the two countries 
of Asia that we are discussing this morning, China or India.
    I think it is very clear that this administration has made 
a policy decision to try to engage both countries.
    Engagement rather than isolation is the view that--of the 
President and the Secretary of State that--that that direction 
will be the most important for our long-term interest.
    Clearly, these two countries have great differences. India 
is a democracy, a vibrant democracy, which is the reason that 
we are having this hearing this morning to discuss those recent 
developments.
    China is not. China is an authoritarian regime. We have 
concerns with China that we do not have with India.
    China's human rights record is abysmal. India's is a 
democratic tradition, one that we share concerns, but we 
applaud the--the democratic tradition in India and its 
practices.
    We believe that we should not be in a position of trying to 
offset or play one against the other. We would like to engage 
both in terms that are productive for U.S. interests.
    I would also say, though, that the reports of the last 
several days and the release of the report today, I am sure, 
will be read very closely in India to see what implications 
that report has for its security deliberations, and we will 
understand that.
    The fact is that we have tried. Even though the pace 
sometimes has been slower than some would like, we have tried 
in these months since the nuclear tests, which were of great 
concern to us and still are, of a year ago--we have tried to 
better understand India's security concerns and requirements.
    And those requirements, I am sure, will be affected by the 
information contained in the report released today. And how 
that plays into India's long-term requirements, we will have to 
see.
    These are decisions that India will have to make, but we do 
hope that even as India addresses its security requirements, 
that it can also address the concerns of the international 
community about non-proliferation.
    We think that these twin concerns can be harmonized, and we 
hope that India will be able to do that.
    Senator Brownback. What has been the initial reaction you 
have received from Indian officials about the Cox report, the 
technology that has gotten from the United States to China? 
What--what have you heard from Indian officials?
    Secretary Inderfurth. We have not heard anything directly 
from Indian--Indian officials. There have been numerous press 
reports about this, editorials in the Indian press. We have not 
received, to my knowledge, any direct inquiries.
    I am sure that they will want to see that report now that 
it is publicly released.
    We are, as you know, in a period of a caretaker government. 
We will continue to have normal diplomatic relations with the 
Indian Government. But I do not envision that we will be able 
to have the kind of intense dialog that we had before the fall 
of the Vajpayee government.
    But we will certainly be prepared to answer any questions 
that they have about that report and discuss it with them.
    Senator Brownback. It would just strike me that if--if I 
were an elected official in India today, I would be deeply 
concerned about this breach of technology by a large country 
that sits right on my border that I have had difficulties with 
in the past.
    Secretary Inderfurth. Well, I have had an opportunity to 
see an advanced copy of testimony that I think you will be 
hearing later this morning, which will touch on the--the China 
dimension and India's security concerns.
    And I think that what you have said is absolutely right. 
That will have to be taken into account, and India's concerns 
about China go back many years. They are concerns that they 
have expressed very clearly to us.
    As I noted in my testimony, however, we hope that these two 
countries that do play and will increasingly play a role in the 
world's stage in the 21st century, that they will address their 
concerns directly.
    That is the only way that those issues can be fundamentally 
resolved, and we hope the expressions by both foreign ministers 
in both countries to pursue that engagement will--will take 
place; and the sooner the better.
    Senator Brownback. It just--it seems to me that we might be 
at a critical moment in our relationship to India if we do not 
put the portal through which that relationship is--is dealt 
with so narrow.
    If we do it beyond just the issue of CTBT but say rather to 
the Indian government, the caretaker government, or whoever 
will follow after this one, ``We want a very broad, expansive 
relationship,'' and if that were communicated directly and as 
much as possible now, that there would be a number of people in 
India and in the dialog that they have going on now with their 
people through the election process, that would be quite 
willing to engage the United States at this point in time that 
perhaps 5 months ago, 6 months ago they would not have been.
    I wonder if we are not at a real strategic window here for 
us to rapidly expand the relationship with India and put as 
much intensity and focus on it as we do on China.
    And I know that is not your desk; that is somebody else's. 
But we put a lot of time and effort in an expanded view in our 
relationship with China.
    And we say, ``Well, OK. You have got human rights problems. 
You have problems in Tibet. You have prison labor problems. You 
have forced abortion problems. You have religious persecution 
problems, but we are going to kind of look past all that, 
because we want a broad relationship with you in China.''
    And yet it seems as if India, we are saying, ``OK, now, if 
you do not get through CTBT, we are not going to talk with 
you.''
    That--it just strikes me as not being balanced whatsoever, 
nor appropriate given the time and the situation and position 
that we, as America, find ourselves in relative to these two 
enormous and important countries.
    Now, I hope you can correct me that my perception is wrong, 
but that is what strikes me as--as the situation that we 
present to both of these two important countries.
    Secretary Inderfurth. Mr. Chairman, I would defer to my 
colleagues at the Department for a--a better description of our 
engagement with China, but it is my strong view that it has not 
been one to brush aside concerns on human rights.
    I think our most recent human rights report made it clear 
that we will discuss all of our concerns on that score very 
publicly and openly and, quite frankly, to the great 
displeasure of the Chinese Government. And Secretary Albright 
has gone to Beijing and raised these as part of our whole 
agenda.
    Now, on the question of our narrow portal, with respect to 
India and, indeed, Pakistan, it is broader than CTBT. And I 
think that in our discussions, you know that our concern about 
non-proliferation goes beyond CTBT to include fissile material 
production, export controls, strategic restraint or defense 
posture, about what next steps the two countries might take now 
that they have openly tested nuclear weapons, what they might 
do with respect to deployment or weaponizing, other things, 
which could lead to a nuclear or missile arms race, things of 
concern to us and, we believe, to them.
    So our--our portal is broader than you have described it, 
but it is one that I think that recent events with respect to 
China should actually underscore the importance of addressing 
as soon as possible.
    And I say that because in our view it is in India's 
interests to see an international ban on any further nuclear 
testing.
    China has signed CTBT, but it has not ratified. We would 
not want to see China move away from that commitment.
    We believe that a fissile material cutoff treaty is also 
important. China has stopped production of fissile material. 
But they have not stated so publicly. They are engaged in 
Geneva on the lead up to negotiations on an FMCT.
    We believe it is in India's interest to see that the 
current freeze by China on fissile material continues and, in 
fact, made into an international treaty.
    So we believe that there are boundaries around which the 
nuclear and missile competition can be constructed and that 
these international agreements are ways of doing that, that are 
in India's interests, in part because of their concern about 
China.
    We would not want to see an open-ended competition between 
India and China in terms of their nuclear or missile programs 
and modernization, so we see this in--in India's interest as 
well, obviously, as in Pakistan's.
    At the same time, I, too, share your view that we need to 
get beyond the single issue agenda. We do need to open up to 
have the kind of broad based relationship that the President 
indicated 3 years ago that he wanted to--to have with India. 
And we were moving in that direction until the tests.
    And, again, the reaction to the tests a year ago was not 
just a United States reaction; it was an international 
reaction. And we have tried to, therefore, address that 
fundamental issue so we can move forward.
    But let me just say this in--in a more encouraging 
optimistic fashion: It is clear that we cannot do a great deal 
on this during this period between now and October. It would be 
inappropriate for the United States to try to engage the 
government in New Delhi on fundamental issues in its current 
capacity.
    But we will make it clear that as soon as a new government 
is formed, we want to re-engage immediately and to see whether 
or not we can go in the direction that you are recommending, to 
address our security concerns and to open up our dialog across 
the board--and perhaps, I hope, with Presidential engagement. 
He would like to do that.
    Senator Brownback. Good. Well, I would certainly encourage 
it and it seems to me, actually it is the right time to do it 
while the Indian people are having the discussion, their 
elected leaders, with them of the--through the process of an 
election.
    On the floor of the Senate right now we are discussing the 
defense bill, and I anticipate putting up an amendment that 
would provide for a 5-year lifting of sanctions on both India 
and Pakistan.
    I would hope that the administration could support us in 
this effort. One of the first things we have to do to broaden 
this relationship is get these sanctions off, and I would hope 
that you could support us in this amendment as we move it 
forward on the floor.
    Secretary Inderfurth. Mr. Chairman, I anticipated that you 
would ask a question about the, what we are calling Brownback 
II. I--I hope you realize it has now taken on that--that 
nomenclature after your very valuable amendment last year, 
which was Brownback I.
    If I may, I would like to simply give you our--our views on 
this--on this legislation and the process that you have 
initiated here.
    Mr. Chairman, as progress has been achieved in our 
discussions with India and Pakistan, we have taken advantage of 
the limited waiver legislation enacted last year by the 
Congress, the Brownback amendment, to relax some of the 
sanctions against the two countries. And as you well know, that 
waiver expires in October of this year.
    Although we are not prepared to waive additional sanctions 
at this time, we do seek comprehensive permanent national 
interest waiver authority for all of the Glenn and related 
sanctions against India and Pakistan.
    In addition, in order to ensure a level playing field in a 
post-sanctions environment, we favor the repeal of the Pressler 
amendment, which affects assistance to Pakistan. And I 
understand that your new legislation includes that provision.
    We have seen several proposals this year, including the one 
by you, which calls for outright suspension of many of the 
original sanctions and another by the House International 
Relations Committee to extend the current waiver authority for 
another year.
    Mr. Chairman, the administration welcomes the readiness of 
Congress to extend the scope and duration of existing sanctions 
relief authority.
    In our view, recent events have underscored the 
advisability of providing the President with flexibility in the 
form of waiver authority versus suspension, regarding both the 
scope and timing of sanctions relief. We believe this flexible 
instrument of diplomacy can contribute directly to the goals 
that the Congress and the administration hope to achieve.
    That said, we look forward to working together with this 
committee and other Members of Congress. As the various 
proposals move forward, we believe that this is an important 
undertaking and one we support.
    Senator Brownback. Now, I want to clarify here, the 
amendment I am putting forward will provide a 5-year 
suspension. I mean, we want to lift these sanctions and we do 
not want to hold it as a sword over the head of the Indians or 
the Pakistanis, purposefully stating to them: We want a broad-
based engagement here. We want to move aggressively forward in 
the relationship with both India and Pakistan.
    Now, I understand you to say you would--you would rather 
have waiver authority but you are not going to oppose the 
suspension that I am putting forward in this amendment.
    Secretary Inderfurth. Mr. Chairman, we realize that this 
legislative process is starting here and will continue. We want 
to continue discussing our views with you on the national 
interest waiver authority versus suspension.
    As I said in my statement just now, we would actually like 
to see this go even further to have comprehensive permanent 
authority for all these sanctions.
    But we believe that this is a--a good start, one that we 
want to go forward. We will continue having discussions as we 
already have with you about this issue of waiver authority 
versus suspension.
    But we do believe--because the clock is ticking on the 
authority we currently have, we do believe that it is very 
important for this process to begin.
    Senator Brownback. Well, we would appreciate your support 
in whatever form we can get. And again I just think it is 
critically important we send those sort of signals now, and 
that this is the point in time--we do it now.
    And if we are to engage into a long-term relationship, we 
need to have some time with these and not just another 1-year 
waiver that is--that is, you know, people cannot really plan 
around. They do not know for sure what is going to take place.
    And plus if these are countries that we want to really 
engage in for a long period of time, that we see as strategic 
allies, it should not be a year-to-year thing. This should be 
something that--we say, in my part of the world, ``We are not 
planting an annual. We are planting a perennial.''
    This is something we want each year, just keep coming up, 
but we do not have to plan it. We want a long-term relationship 
here and so it needs to be for a period of years.
    Secretary Inderfurth. Mr. Chairman, we too want a long-term 
relationship. And we also said this publicly on several 
occasions: We also want to be moving in the direction of a 
sanctions-free relationship with both countries.
    These sanctions clearly inhibit the potential we have with 
both India and Pakistan, two countries that we want to 
establish long-term sustainable relations with; two countries 
that are quite different in many respects.
    We will have a different type of relationship with India 
than we will with Pakistan, but we consider both of them 
important friends and ones that we do not want to see 
encumbered with sanctions over time.
    Now, I must say, though, that we believe that there are 
steps that they can take as well. We want to have choreography, 
if you will, in moving toward the kind of relationship with 
both countries that we wish.
    We believe that there are steps that they can take to 
address not only our concerns but those of the international 
community on non-proliferation matters. And I know that you 
feel strongly about--about that issue.
    We do not want to see other countries take a page out of 
India or Pakistan's book and move forward with their own 
nuclear or missile programs.
    We do not want to see that proliferation of dangerous 
technology around the world. We, therefore, hope and believe 
that both countries can take steps in their own interests to 
address that; and as they do that, we can also move forward 
with establishing the kind of broad-based relationship that you 
are suggesting.
    So these are things that we can do mutually. It is not an 
either/or. It is not just us, or just them or vice versa. These 
are things that I think that we can and we have established a 
basis over these 10 months--we can do these things together.
    Senator Brownback. Well, I hope we can move forward with 
good speed and deliberation and send those positive signals to 
the people across India and across Pakistan.
    Thank you very much, Mr. Secretary, for your testimony. I 
have a couple of other questions that I would like to submit to 
you in writing rather than taking up the time here at the 
hearing today.
    [The information referred to follows:]

   Responses of Assistant Secretary Karl F. Inderfurth to Additional 
        Questions for the Record Submitted by Senator Brownback

    Question 1. In the past, Muslim and Sikh religious minorities have 
more frequently been targeted by religious intolerance than Christians. 
Has there been any improvement in the religious climate for these 
groups?

    Answer. The past eighteen months have been comparatively quiet with 
respect to religious intolerance directed against Muslim and Sikh 
minorities in India. There are allegations from Sikh human rights 
groups that they are harassed by authorities in connection with their 
attempts to seek investigation into police excesses of the late 1980's 
and early 1990's but this has not translated into communal violence.

    Question 2. Since the May 1998 nuclear tests, eight rounds of talks 
have been held between the U.S. Deputy Secretary of State and Indian 
Foreign Minister Jaswant Singh and between Talbott and Pakistan Foreign 
Secretary Shamshad Ahmad. What is the status of the talks--where has 
progress been made and where has it not? How will the talks be affected 
by a change in government in New Delhi?

    Answer. Since the tests last May, we have engaged in intensive 
diplomatic efforts, both in concert with other countries and 
bilaterally, to convince India and Pakistan to turn away from the 
dangerous course they have set by their nuclear tests and ballistic 
missile competition. The United States remains fully committed to this 
effort. We support the benchmarks set forth in the P-5 and G-8 
communiques and UNSC Resolution 1172. We have tried in particular to 
move India and Pakistan toward near-term steps to defuse tensions and 
prevent an arms race.
    These efforts have yielded some progress. India and Pakistan have 
declared a moratorium on further nuclear testing and have stated their 
intention to adhere to the CTBT. Both have committed to strengthening 
controls on the export of nuclear and missile technologies. Both have 
agreed to join talks in Geneva on a Fissile Material Cutoff Treaty. 
Finally, at the Lahore summit, the two countries' prime ministers 
committed their governments to intensify efforts to resolve the issues 
that have divided their countries for so long. Clearly, however, the 
Kargil conflict poses a grave risk to the progress both countries made 
at Lahore.
    During Deputy Secretary Talbott's series of security and 
nonproliferation talks with India and Pakistan, we have also maintained 
contacts with a variety of parties across India's political spectrum. 
Therefore, we are confident that, whatever government emerges from the 
current political process, we will be well prepared to engage with it 
as soon as possible.

    Question 3. In 1995, a joint Indo-U.S. steering committee was 
established to coordinate relations between the two countries' armed 
services, including exchange visits, technical assistance, and military 
exercises. What has been the status of this committee since the 1998 
nuclear tests?

    Answer. Before the nuclear tests of May 1998, the focal point for 
our military relationship with India was the Defense Policy Group 
(DPG), an annual steering group normally cochaired at the Assistant 
Secretary of Defense level. The DPG's mandate was to oversee military-
to-military cooperation, security assistance, and defense research and 
production cooperation under a Joint Technical Group. The initial DPG 
meeting was held in 1995, and further sessions were held in 1996 and 
1997. DPG activity was suspended in the wake of India's nuclear tests, 
and remains so pending further progress in the U.S.-India security 
dialogue.

    Question 4. International Military Training Education (IMET) 
funding of the $450,000 for India for FY1999 was restored under the 
India-Pakistan Relief Act. How are these funds being used?

    Answer. India plans to send personnel to the Air War College and to 
an electromagnetic spectrum management course, and has requested course 
``slots'' for the Army War College and Naval Command College. The total 
cost of all four courses is approximately $130,000. Due to India's 
initial hesitation to take advantage of IMET following the restoration 
of the funding in December, and India's interest in a limited number of 
courses, it will not be possible to utilize the entire $450,000 for 
India this year. Therefore, the remainder of the funding for this 
fiscal year is expected to be reallocated to other country programs 
with unfunded requirements. We will provide the appropriate 
notification to Congress of any such reallocation.

    Question 5. There has been some confusion as to the legal authority 
for the Administration to place companies on the ``entities list.'' Is 
it the Administration's position that the ``Glenn Amendment'' required 
the Administration to place some 300 Indian and Pakistani companies on 
the entities list? If not, why did the Administration expand the list? 
Please provide a list of those companies that comprise the entities 
list.

    Answer. The Glenn Amendment required that the authorities of 
section 6 of the Export Administration Act of 1979 ``shall be used to 
prohibit exports . . . of specific goods and technology (excluding food 
and other agricultural commodities)'' to India and Pakistan after their 
May 1998 nuclear tests. There was no specific requirement to establish 
an entities list. As a matter of policy, to bring clarity for U.S. 
exporters and demonstrate to India and Pakistan the negative 
consequences of the steps they took, the Administration decided to 
impose restrictions on trade with selected entities having connections 
to nuclear, missile or military activities. The length of the resulting 
``entities list'' for India reflects the size, diversity and 
decentralization of its economy. A copy of the list is attached.

    [The list supplied has been retained in the committee files, but it 
can be accessed at the following site:]

http://www.bxa.doc.gov/Entities/entity.htm

    Senator Brownback. And as always, I deeply appreciate your 
willingness to come up because I know most people would rather 
go to the dentist and have a root canal or two than testify in 
front of a U.S. Senate hearing.
    So I appreciate deeply your willingness to come up for the 
root canal. Thank you very much.
    Secretary Inderfurth. It--it is not nearly as painful as 
you suggest. And I do want to, again, express my deep 
appreciation to you for your continued deep interest in the 
region and our relations, and we enjoy very much working with 
you. Thank you.
    Senator Brownback. Thank you, Mr. Secretary.
    The second panel will be the Honorable Frank G. Wisner, 
vice chairman, external affairs, American International Group, 
Inc., New York, New York; and the other witness will be Mr. 
Stephen P. Cohen, senior fellow, Foreign Policy Studies, the 
Brookings Institute here in Washington, DC.
    Gentlemen, thank you very much for joining us today. And, 
Mr. Wisner, I believe, we have got you listed first on the 
program. Unless you have arranged differently, we would like to 
have--I would like to have your testimony first.

  STATEMENT OF HON. FRANK G. WISNER, VICE CHAIRMAN, EXTERNAL 
   AFFAIRS, AMERICAN INTERNATIONAL GROUP, INC., NEW YORK, NY

    Mr. Wisner. Senator, thank you very much. I am honored to 
appear before your committee.
    The occasion is a special one for me as I served as 
Ambassador in New Delhi from 1994 to 1997, and in my work with 
the American International Group have been able to pursue my 
corporation's interests in India in risk management, in 
investments, notably in Indian telecommunication and computer 
software processing; and we have ambitions to expand into the 
insurance market, into health care and into consumer finance.
    I have also had the privilege, Senator, of serving on the 
board of Enron Oil and Gas, which has substantial gas holdings 
in the fields off the Maharashtra shores.
    And I have been privileged to be associated with a number 
of non-profit organizations, the U.S./India Business Council, 
the Council on Foreign Relations, the Asia Society, all of whom 
have followed matters related to India.
    It is a special privilege, therefore, to join you today and 
reflect. I prepared testimony for the committee. I am 
submitting that testimony for the record and rather than read 
it through, would prefer, with your permission, to summarize my 
views and make a point or two in addition.
    Senator Brownback. Absolutely. And the full testimony we 
will put into the record as if presented.
    Mr. Wisner. I admire enormously your taking the time today 
to receive all of us, to be able to consider an issue of the 
importance of our policy toward India and Pakistan, especially 
in the wake of the nuclear events of May 11, 1998 and the 
actions Pakistan took in--in following it.
    I recognize how many demands there are in your schedule and 
how many other issues, including our engagement in the Balkans, 
press upon your time. But the region is, as you noted, 
extraordinarily important, representing approximately a quarter 
of the world's population.
    It is also an area of vital significance to the peace and 
stability of Asia and especially as the new century comes on 
us.
    I believe and I join with you, Senator, that the time is 
right to lay the basis for a new security and political 
relationship with South Asia.
    India has the attributes and is acquiring those of a major 
Asian power capable of playing a role in ensuring the balance 
of power in the region and in the peace of Asia in the century 
ahead. Pakistan, in like manner, is critical to its own 
neighborhood.
    The May 11 test in an ironical fashion, I believe, freed 
our diplomacy, for it gave us an opportunity to put our 
proliferation objectives into perspective, to recognize that 
there are broader issues; and now that the tests are over, to 
seek that expanded relationship that you have outlined.
    The United States' diplomacy since the 11th of May has been 
active, more active than almost at any time in history; active 
directly with India and with Pakistan, with our allies in the 
Permanent V and the G-8, taking into account for the first time 
the China factor, as one great importance to the region, and 
seeking balance not only between the region and China, but 
between India and Pakistan.
    I do not believe that South Asia is poised on the brink of 
a nuclear war. In fact, I believe there is promise in 
stabilizing the India/Pakistan relationship.
    But it is a time to be attentive and careful, for the 
introduction of nuclear weapons and the intensified development 
of delivery systems have raised the stakes in the region, 
especially in light of the history of friction between the two 
nations and the rudimentary communications that have existed 
heretofore between the two governments and between New Delhi 
and Beijing.
    I want to underscore the Delhi/Beijing issue, the China/
India issue, for the risk that it poses to the United States 
and the world in the next century as these two great nations 
gain economic strength and military capabilities. And unless 
they are on an even keel, one with the other, they represent an 
issue of grave concern for all the rest of us.
    The situation we face in South Asia, Senator, is not a 
result of the failure of our proliferation policies, our 
intelligence or the organization of our national security 
community.
    While clearly we could do better in all of these regards, 
we have to be fair with ourselves and recognize that the 
nuclear event in South Asia flowed from factors that are 
related to that area: India's view of the world; its place in 
the world; the end of the cold war; and India's isolation as a 
result of the fall of the erstwhile Soviet Union; the issue of 
China, and the continuing tensions and difficulties between 
India and China; the success in a way of our proliferation 
initiatives.
    The very fact that we moved from the NPT to the CTBT 
isolated India, increased the stakes in her mind that her 
ability to defend herself would decline. And sadly, India's 
negative attitude has been intensified by a long-standing 
Indian suspicion of the United States.
    The issue of proliferation can only be attacked 
politically. And while some progress has been made, more must 
be.
    And after the Indian elections are over, it would be my 
hope that the administration intensify its diplomacy and pursue 
a fresh broader relationship, as well as an understanding on 
the proliferation issues.
    We must also keep China in mind, as you noted, engaging 
China in finding ways to reduce tensions in the region and 
increase dialog with the region.
    We need to press China hard in this regard as we need to 
encourage India. But we cannot ever afford to let our 
relationship with China appear to be pursued at India's 
expense, any more than we--we can allow our relationship with 
India to appear to be pursued at Pakistan's expense.
    Let me summarize several points. This is the time to 
intensify and broaden relations with South Asia.
    We should allow no single issue to dominate the agenda. We 
should allow for a broad agenda, representing all interests, 
including proliferation ones. And I believe and I welcomed the 
word, the signal that Assistant Secretary Inderfurth gave this 
morning that there is a role for high-level visits--a visit by 
the President of the United States is long overdue, a visit by 
senior Cabinet officers needs to continue.
    I believe that it is also vital to deal with the constraint 
of sanctions. On--our sanctions policy, in my judgment, has not 
served to deter the nuclear event--events we faced in South 
Asia. And we have relied excessively on sanctions to pursue our 
diplomacy.
    Those sanctions have eroded our credibility. The effects on 
Pakistan have been extraordinarily severe. And U.S. business 
has paid a price. Overall, U.S. influence most importantly has 
paid the heaviest price.
    I have written you separately and argued that, I believe, 
that sanctions should only--only be applied unilaterally if 
there is a direct threat to American national interests. If 
there is not, then sanctions should be considered after 
diplomacy is exhausted or needs reinforcement and then in a 
multilateral context.
    The above features should be accompanied by waivers and 
sunset provisions.
    And therefore, I--I support the initiative that you have 
outlined today as well as the legislations that Senators Lugar, 
Kerry and Hagel have under way and Congressmen Crane, Dooley 
and--and Manzullo, especially their call for a careful 
assessment of the consequences of sanctions before the United 
States enters into them.
    It is key, Senator, I would argue, to return to our 
opposition to secondary boycotts and therefore to deal with the 
ILSA and Helms/Burton legislation.
    You were looking at the issue of the suspension of 
sanctions. You have called for a 5-year suspension. I can only 
think that that will make excellent sense in the broad context 
of moving forward, to change the thrust of sanction--the 
sanctions policies of this Government. And it notably sets the 
stage for opening up our diplomatic dialog with India.
    I hope that the suspension will be--will cover dual use 
technology trade as well as trade in ordinary--I underscore 
``ordinary''--military items.
    I would ask that as you proceed forward, Senator, that the 
Congress find a way to express to the administration its views 
on what is called in the trade, the entities list.
    That list, which prescribes trade with a number of Indian 
corporations, is having an extraordinarily negative effect. The 
restrictions have been too broadly defined by the 
administration.
    We should constrain trade only with entities that are 
directly involved in nuclear and missile production, not those 
that are indirectly or tangentially identified and in dealing 
with companies that are directly involved in nuclear and 
missile production, our constraints should only be on 
technologies or goods that affect missile and nuclear 
production, not secondary or tertiary items that do not affect 
it.
    In other words, the trade should be--the trade restraints, 
where they need to exist, should be highly targeted. I would be 
happy to discuss the refinements of that separately, Senator, 
or answer questions on the same.
    I ask that steps be taken that would signal that there is a 
common American purpose, a common administration and 
congressional purpose. I do not wish to see sanctions relief 
brought in in a manner that appears that the United States' 
house is divided.
    And I welcome, therefore, your signal to Mr. Inderfurth 
this morning to join you in support of what you are doing. We 
need to speak with one voice.
    I noted as well, Mr. Inderfurth's statement this morning 
that he seeks a lifting of the Pressler amendment. I would 
think that is an excellent idea, but I would like to make 
certain that when it is raised, there are options available for 
India--for example, the continuation of the production of the 
light combat aircraft in which the United States has been so 
heavily involved for a number of years.
    The administration needs to be certain that it extends a 
balanced view of how it wishes to proceed with an arms supply 
relationship, spare parts and ordinary military goods.
    Finally, Senator, let me close on a note that I think is 
of--of great importance. It was my privilege as Ambassador in 
India to be able to observe the work of the Agency for 
International Development, while it was engaged not only in 
dealing with India's enormous basic human needs, but also 
encouraging the development of institutions, which underscored 
Indian economic reform and made it possible for Indian 
financial service institutions to develop and to be available 
for American investors as well as Indian and other national 
investors.
    I would hope that--therefore, that it will be possible to 
encourage AID, the Agency for International Development, to 
return to the Indian job that it set for itself before, doing 
its useful work in strengthening the stock exchange, regulatory 
system in Bombay and being able to help in the financing of 
city development, the floating of bond issues that will permit 
infrastructure development.
    These AID vehicles have been enormously useful to the 
United States, our image in India, been useful to American 
business. And they ought to be encouraged to be started again. 
Their status today is suspended.
    Senator, thank you very much for your attention to my 
remarks and my best wishes, as well, to Senator Sarbanes who 
just joined us.
    And let me turn the floor over to Mr. Cohen.
    Senator Brownback. Thank you very much, Ambassador Wisner. 
Those are excellent comments. I will look forward to following 
with several of them on questions for you.
    [The prepared statement of Mr. Wisner follows:]

               Prepared Statement of Hon. Frank G. Wisner

            united states' policy toward india and pakistan
    It is a special honor to be asked to appear before this committee 
to speak on a subject of fundamental importance: South Asia's nuclear 
experience and its effect on relations between the region--notably 
India and Pakistan--and the United States.
                              may 11, 1998
    We meet today in a time of terrible testing for this country and 
the NATO Alliance. We are also mindful of the fact that the world is 
beset with crises--crises which will set the stage for relations 
between states in the 21st century, every bit as much as the quest for 
advantage among western European nations; the decline of the Russian 
and Austro-Hungarian Empires, the retreat of the Ottoman Empire; the 
wars in the Balkans and the quest for colonies defined the last days of 
the 19th century and the first days of this one.
    Today there is much to preoccupy our attention. In addition to the 
Balkans; we confront a global economic crisis; a disaster in Central 
Africa; tensions in the Levant as well as in Iraq; and tension on the 
Korean peninsula.
    Of no less importance is the question of South Asia, especially in 
the wake of nuclear tests there and United States' relationships with 
that part of the world.
    For this reason, I appreciate the Committee's decision to take time 
to consider the sub-continent. At issue as well is the conception of 
Asia in general, especially how we will relate to the great states in 
Asia--China, India, Japan and Russia as well as the key second tier 
players--Indonesia, Australia, Korea, and Pakistan.
    I must admit to a bias. I remain persuaded that the concept of the 
balance of power remains every bit as important in the shaping of 
interstate relations today as it has since nation states as we know 
them emerged in Europe in the Eighteenth Century.
    By a balance of power, I mean no state can pursue its interests in 
a manner which appears to take advantage of another state or states--
without those states combining to contain the ambitions of the 
offending nation. The concept of balance of power is not about human 
rights, trade or other issues of vital significance; it is about issues 
of power and stability--the essentials of the international order 
without which no other objective can be pursued.
    With this thought in mind and convinced that the principles of the 
balance of power apply to Asia as they have applied to Europe, I ask 
you turn your attention to South Asia, notably nuclear South Asia--
subjects which preoccupied American diplomacy since India exploded 
nuclear devices on May 11, 1998. And Pakistan followed suite shortly, 
thereafter. These events effect seriously the United States, 
confronting us with a challenge to the non-proliferation regime we have 
endeavored to construct around the world.
    There are other dangers. We are reminded of the hostility between 
India and Pakistan. While the two nations have not formally engaged in 
war since the early 1970's, they live virtually at daggers drawn.
    Until the Vajpayee-Nawaz Sherif summit in February in Lahore, the 
communications between the two governments had atrophied. Pakistani 
support for the Kashmir insurgency and covert assistance to other 
Indian dissidents; occasional Indian mischief; and all too frequent 
artillery duels along the Kashmir Line of Control have been the 
dominant facts in relations between the two states this decade. The 
nuclear fact simply adds to the region's tensions.
    To make matters worse, the nuclear explosion has brought to the 
fore an additional reality--India's extreme preoccupation with China 
and India's view that absent some ability to regulate the relationship, 
China and India are on a collision course, especially in the 21st 
century when each nation has strengthened its economy and increased its 
military power.
    As dark as the picture appears to be, let me assure you that I for 
one and I suspect some in the Administration and Congress see in the 
South Asian nuclear event the possibility of freeing our diplomacy 
toward the region from the thrall it has been in since the early 
1970's--when India first tinkered with a nuclear explosion. At that 
time we elaborated in response to India's nuclear excursion an array of 
sanctions--sanctions we extended progressively and in later years in 
response to developments there we imposed them on Pakistan. Sanctions, 
I argue, which did little to deter India's and Pakistan's development 
of nuclear weapons and their accompanying delivery vehicles but which 
severely complicated our relations with both government, reduced our 
ability to engage either government on the issue of proliferation and 
by reducing Pakistan's defense capability, pushed that country deeper 
into the embrace of its nuclear advocates.
                           an historical note
    Allow me for a moment to set the historical stage. As we look back 
at the 1974 Indian nuclear event, it is clearer than ever that India's 
humiliating defeat at China's hands in the 1962 border war and China's 
adoption of a nuclear option drove India's leaders to establish their 
own nuclear weapons program. For nearly two decades that program made 
only slow progress, constrained by the caution of successive Indian 
governments and by the fact that India's relationship with the 
erstwhile Soviet Union gave her a sense of security. That sense of 
security served to reinforce restraint.
    With the collapse of the Soviet Union in 1989, India's 
circumstances changed perceptibly. Alone in Asia and facing China 
without a sympathetic great power at her side, India had to find new 
security relationships or framework or India would look to her own 
defenses. Indian officials could not ignore the implications of China's 
provision of missile and nuclear weapons technology and equipment to 
Pakistan. India's exposure and the challenge implicit in it, never 
clearly articulated by New Delhi, was largely missed by Washington and 
certainly never acted on. In fact, we have never considered South 
Asia's, especially India's, security concerns as central to our own. 
Even our decision to engage India in a security dialogue in the 1980's, 
during the Reagan administration, was part of our drive to isolate the 
Soviet Union and not a policy of engaging South Asia on its own terms.
    We did not then, nor have we since, thought through a security 
formula for the region which would integrate it more deeply into our 
ambitions for stability in Asia; limit the potential for war in the 
subcontinent or with China; and contribute to our broader quest for 
non-proliferation norms. Instead we followed narrowly our non-
proliferation lodestar. Congress joined in adding legislative muscle to 
our proliferation concerns.
    I argue that there exists a security framework for India and 
Pakistan, which is consonant with U.S. interests. That framework 
springs from the notion of a balance of power and can be pursued in the 
context of our broader quest for Asia's security. Suffice it to say, 
the road was not explored nor traveled--by any party.
    Instead, as the 1990's advanced, the conditions for India's going 
nuclear multiplied. The permanent extension of the NPT reminded India 
of her isolation. She saw her nuclear option narrowing. The NPT event 
was closely followed by CTBT. As CTBT negotiations advanced, China and 
France engaged in increased nuclear testing, events the international 
community and the United States choose to accommodate.
    India then suffered a serious diplomatic embarrassment in pursuing 
its challenge to the CTBT. India, as its establishment has chosen to 
put it, saw herself as a victim of ``nuclear apartheid''. India saw in 
Article 14 of the CTBT treaty the potential of serious pressure on her 
government to join the treaty in three years and forego forever 
testing. With a Fissile Material Cutoff Ban Treaty on the horizon, 
those responsible for Indian national security faced a dual dilemma--
how to stand by a policy of nuclear ambiguity and how to avoid 
international isolation, at the same time maintaining a credible 
deterrence. The arrival of the BJP led government in March 1998 was the 
final straw.
    The BJP never disguised its views on India's nuclear option. The 
party is by its own definition nationalist. Its philosophy is rooted in 
the view that India's weakness has laid her open to foreign invasion 
and has prevented her from assuming her natural place of influence in 
the world--inheritor as she is of a major civilization. The BJP 
national security doctrine is based on the notion that international 
relations are inherently predatory--the mighty take advantage of the 
weak. Inevitably, China with her faster rates of growth, BJP 
intellectuals argue, will seek advantage over India, unless India is 
able to deter China and counter China's nuclear arsenal. The fact that 
China is accepted by the international community de jure as a nuclear 
power and India is not, only adds fuel to the fire of India's 
discontent. If India is to be safe, BJP and other Indian defense hawks 
argue, she must be able to stand behind a nuclear shield--one of her 
own making since no international guarantee will give a great nation 
confidence.
    There are other aspects to the BJP's logic which I will not 
elaborate. Sadly, that logic is rooted in a more broadly held Indian 
view--one that exists across the Indian political spectrum: suspicion 
of the United States. Even though no Indian can explain how the United 
States stands to benefit by India's weakness, Indians are broadly 
convinced that the United States has systematically opposed India over 
the past fifty-years--favoring Pakistan and then China--and possibly 
the two in combination. This suspicion makes it most difficult for 
American leaders and diplomats to establish the common ground for a 
security dialogue. As my Indian friends are often given to say, ``he, 
who controls the assumptions, controls the conclusions.'' The 
assumption of American hostility runs deep.
    May 11 was not the first BJP dalliance with nuclear tests. The BJP 
considered seriously a test when it held power for two weeks in the 
summer of 1996 but time ran out on the government. It could not prove 
its parliamentary majority. When it returned to office in 1998, the BJP 
lost no time in setting plans for the test.
    Pakistan, despite the President's involvement and our best efforts, 
followed India's lead. In fairness to our Pakistani friends, it is hard 
to see how a politically vulnerable Pakistani government could have 
done otherwise, given history and the violent currents of public, 
military and bureaucratic mood. Our offers to assist Pakistan were also 
suspect in light of our inability in recent years to move the 
relationship, settle outstanding issues like the disposition of 
Pakistan's F16 aircraft, or carry Congress.
                      the permanent five responds
    The response of the United States to the South Asian nuclear tests 
was swift. We imposed additional sanctions--some required by the Glenn 
Amendment; others outside its scope. In addition to those in place 
before May 11, we declared opposition to World Bank and IMF lending for 
all but ``basic human needs;'' we severed all military contacts, and in 
India's case developed an ``entities list'' which proscribes or put 
under review exports to key Indian firms.
    We took our case to the Security Council. Japan, Germany and Canada 
followed our lead imposing sanctions of their own, and the Permanent 
Five elaborated a five point negotiating agenda. That prescription was 
aimed at convincing India and Pakistan to come to terms and rebuild 
confidence between the two and the rest of the international community.
    At heart, the P5 offer--signing CTBT; negotiating FMCT; 
articulating a minimal development and deployment posture for nuclear 
weapons and their delivery vehicles; elaborating export controls and 
reengaging the Indo-Pak dialogue--is about confidence--confidence 
between India on the one hand, Pakistan on the other, Asia and the 
world. That confidence is the necessary precondition to India's and 
Pakistan's finding a secure footing in a volatile international order.
    The United States took the lead in seeking to negotiate this 
agenda. I have the highest regard for the Administration's record in 
this regard--especially for Deputy Secretary Talbott and the able team 
from across government which has supported him. Progress has been 
registered in eight diplomatic rounds. On the first point, CTBT, by 
September 1998 at the United Nations General Assembly, the two Prime 
Ministers had agreed their governments would move toward adherence to 
the CTBT. The Indian government must now secure parliamentary support 
for its change in policy and both governments must commit themselves by 
September of this year to sign.
    Second, negotiators have explored in detail the Fissile Material 
Cut Off Ban. Participation in an FMCT negotiation, in principle, is 
agreed but further work is needed to define how nations producing 
fissile material will suspend production while negotiations in Geneva 
are underway. Knowing something about the Indian nuclear establishment, 
I also suspect the issue of ``how much'' fissile material is needed 
remains to be settled.
    Third, defining a nuclear and delivery vehicle posture is a tough 
nut to crack. Extensive discussions between U.S. and Indian experts 
have taken place but decisions in the final analysis are Indian and are 
related to perceptions of national security. Transparency in questions 
of defense is an alien concept in the subcontinent. We must keep in 
mind, neither the U.S. nor the P5 will dictate the nuclear posture of 
India and Pakistan. Their governments are responsible for sovereignty 
and security and only those governments can define and articulate their 
defense posture. We should also bear in mind India and Pakistan will 
have the right to change that posture later, if threats, not now 
foreseen, to national security emerge. The United States reserves a 
similar right.
    The United States can help define choices but since we are a party 
to the NPT, Washington cannot explicitly negotiate nuclear and missile 
levels with India and Pakistan without compromising an important treaty 
obligation. The burden to define a posture lies with the parties. 
India's commitment to a ``minimal'' deterrent is significant. India's 
willingness to alert Pakistan and others of the Agni test was a 
sensible step. Washington's considered response was also appropriate. 
The Agni, a long-range missile capable of reaching deep in China, was 
an inevitable cohort of the May 11 nuclear test.
    Fourth, I am pleased to note as well that progress has been made in 
export control talks, even though more work needs to be done.
    The Indo-Pak dialogue, while not a responsibility of the P5, 
received a boost in February. We must hope the two sides will 
articulate a concept of negotiations, build domestic support for them 
and make it possible they will survive the changes in South Asia's 
governments. It should not be impossible to structure negotiations 
which address all issues, including Kashmir, and allow each issue to 
reach term on its own, unlinked to other issues. The question of 
Kashmir can be subdivided into separate categories--sovereignty, troop 
levels, human rights, Siachen and trade, to mention a few. Progress on 
one or more questions will give momentum for progress on all.
                           a word on kashmir
    A word about Kashmir. The issue of Kashmir, especially the question 
of sovereignty over the former princely state can only be resolved when 
the parties are ready for an agreement. This disposition does not exist 
today. An invitation to mediate is therefore a trap; accepting it can 
only lead to trouble. Informal contacts and advice are one thing. 
Formal involvement is not in the cards and any attempt to secure it 
will undermine the role which the United States--or for that matter any 
other party, including the Security General of the United Nations, can 
play for helping the region sort out its affairs. The Kashmir dispute, 
especially the question of sovereignty, will take years to resolve.
                           the role of china
    China has a special role in the South Asian equation and our 
diplomacy with China should take account of that fact. China is a 
reality in South Asia's past and future. Unresolved borders and China's 
arms relationship with Pakistan, especially where that relationship has 
touched on nuclear and missile matters are of deepest importance to 
India. The United States' decision to deal gingerly with China on 
nuclear missile exports to Pakistan is resented in India; our inability 
until very recently to discuss in candor and in depth our approach to 
China on these questions has not helped. the United States' decision to 
pursue our policy of engagement with China--while appearing to hold 
India at arms' length--is regarded with suspicion. China has a 
responsibility to accelerate and deepen its dialogue with India. At the 
same time, the United States must keep in mind that we cannot be seen 
to pursue a relationship with China at India's--or for that matter at 
Japan's--expense, any more than we can be seen to pursue a relationship 
with India at Pakistan's expense. The President's words last summer in 
China, seemingly inviting China into South Asia, hurt our diplomacy.
                             dangers ahead
    Eight rounds of talks not withstanding, the goal line in South Asia 
has not been crossed. Full agreement on the elements in our dialogue 
remains to be achieved. Nor, therefore, has a basis for a new 
relationship between the United States, India on the one hand and 
Pakistan on the other, been defined. Sanctions remain in place and 
undermine our ability to pursue our goals with the two governments. 
Rolling back India's and Pakistan's nuclear arsenals is no longer in 
the cards but how we will live with them or use our relationship to 
improve prospects for peace and prosperity in Asia remain lively 
questions.
    Coming to a conclusion is complicated by the times we live in and 
the crises we are facing elsewhere. Each of us are distracted and risk 
becoming more so. America's hands are full with Kosovo; we are not good 
at managing multiple national security problems. Our presidential race 
is in the offing.
    India's government collapsed on April 17. Congress, should it form 
a government, has not been a direct party to the negotiations. It does 
not share the same sense of commitment. Nawaz's government has not been 
able to cope with Pakistan's economic problems. Trouble brought on by a 
deteriorating economy is serious enough to effect his hold on 
government.
    I admit to a degree of pessimism. So much lies in the balance; much 
has been accomplished and much remains to be done. Failure to reach 
agreement on the benchmarks elaborated in the Strobe Talbott-Jaswant 
Singh dialogue in the months ahead leaves the U.S. and India mired in a 
debate over sanctions, potentially made worse if Congress provided 
relief and the administration finds itself forced to reimpose 
sanctions. Failure to reach agreement on the benchmarks will inevitably 
complicate negotiations between India and Pakistan.
                             the road ahead
    Let me close my remarks with a series of observations about the 
road ahead--guideposts if you will; not a roadmap because in the wake 
of the collapse of Vajpayee's government precise cartography is not 
possible.
    First. We must keep our eye fixed on the strategic objectives. If 
we are to defend our interests in Asia in the next century, we will 
only be able to do so if the balance of power is maintained and as a 
concept it works. The United States has no fundamental quarrel with any 
great or lesser power in Asia. We can engage all. But we need India in 
the equation; without her the equation is not whole. And we need 
Pakistan to insure the stability of South Asia and its environs. We 
must, therefore, develop a security dialogue with India, exchanging 
estimates and intelligence and thinking through how we would act in the 
event of crises.
    Second. India is emerging as a major force in Asia; it is emerging 
as a major trading and investment destination we must accommodate 
ourselves to these facts. India has a role to play in maintaining the 
Asian balance of power. Not that India explicitly accepts the concept 
of the balance of power; it does not. But as it was true during the 
Raj, Indians see their sphere of influence extending from the Suez 
Canal to the straits of Malacca and north to central Asia. India has 
the intellectual establishment, diplomatic infrastructure and growing 
economic power to put strength into its foreign policies. It needs 
focus, of course and I would like to believe it requires a relationship 
with the United States worth qualifying as strategic in significance. A 
relationship with India gives the United States additional leverage in 
containing crises in Asia and in securing stability.
    Third. The whole of our ties to South Asia is greater than any of 
its parts. Despite the importance of non-proliferation, it cannot be 
the dominant fact in our relationship with South Asia to the exclusion 
of other interests. We urgently need to work through a more substantial 
definition, adding security architecture to it. In fact, success in 
developing an overall relationship--one that provides India a long-term 
framework for advancing her security interests--will strengthen our 
ability to deal with non-proliferation imperatives.
    Fourth. The present negotiation must be brought to a close--for 
India's and Pakistan's good and for our own. The new government in 
India should be addressed without delay to define what can be achieved 
under present circumstances. We must work with the other members of the 
P5 to ``keep up the side.''
    Fifth. The style of negotiations is almost as important as their 
substance. India and Pakistan are old and proud nations; both today are 
democracies and vibrant ones. Parliament in India matters; so do 
``think tanks'' and the press. India and Pakistan have high thresholds 
of sensitivity. For American diplomacy to succeed in South Asia, we 
must tread a wary line, avoiding the image of appearing to dictate our 
views; strengthening instead the perception that we seek a partnership 
among equals. India is especially sensitive to being lumped with 
Pakistan. India is right and we need to readjust our language and 
approach if we are to hold India's attention. In fact our policies 
should treat India and Pakistan differently. We have a higher ambition 
for India--a major economic agenda and an association with it in 
securing Asia's peace in the century ahead.
    Finally, engaging India and Pakistan means adjusting the rank order 
of our national foreign policy priorities. No President has visited 
South Asia since Carter; Mrs. Albright's very brief visit was the first 
since George Schultz stopped by in the early 1980's. Our presidents and 
India's Prime Ministers have long fallen out of the habit of 
corresponding over global and Asian issues. India, to my way of 
thinking, is a key part of the emerging Asian equation. We need to be 
in close touch with it and with Pakistan; we need to have India by our 
side in APEC and in the ASEAN forum. And the time is right to think 
about India sharing the continent's and the world's responsibilities.

    Senator Brownback. Mr. Cohen, thank you very much for 
joining the committee.

 STATEMENT OF STEPHEN P. COHEN, SENIOR FELLOW, FOREIGN POLICY 
       STUDIES, THE BROOKINGS INSTITUTION, WASHINGTON, DC

    Mr. Cohen. Good morning, Senators, Senator Brownback, 
Senator Sarbanes. I am honored to be invited to testify before 
the subcommittee again.
    What I--I have prepared some written testimony. I wish to 
have that submitted for the record and what I will try and do 
is--is improvise, because much of what Secretary Inderfurth and 
Ambassador--the Ambassador has said, I agree with, and also 
your--your--your opening remarks.
    Senator Brownback. We will have your full statement put in 
the record as if presented.
    Mr. Cohen. OK. I am--I am by background an academic, 
although I now have joined Brookings and have served for a 
couple of years in the State Department, so my perspective 
still remains that of an academic, a scholar who studied South 
Asia and India for about 30 years.
    And what I think--I think--I would like to say some 
prefatory remarks about misunderstanding India, because I think 
that much of American policy has been--has been based on false 
premises or false understanding of India, in particular; to 
some extent, Pakistan.
    I think we have to understand that India is undergoing at 
least five separate revolutions right now. There is a cultural 
revolution, in that Indian social castes and classes are--are 
now moving in a way very much reminiscent of the American Civil 
Rights movement.
    Simultaneously, there has been a Federal revolution in 
India, with the power of the center declining as--in terms of 
the power--vis-a-vis the power of the states of India.
    There is an ideological revolution underway in India, 
raising the question of what it means to be an Indian. The 
recent--the recent attacks on Sonia Ghandi for being not an 
Indian or being un-Indian because of her Italian birth really 
stems from the BJP-inspired debate about citizenship of India.
    There is also an economic revolution, which is now well 
underway, although it is somewhat stalled.
    And finally India has--has pursued--well, let me say that 
India has been pursuing these revolutions from about 1989, 
1990. They are all fairly recent in terms of their 
intensification.
    At about the same time, 1990, 1991 India's strategic 
position changed dramatically. So you have a country of a 
billion people, soon to be the world's largest country, with a 
tremendous churning internally and also its external situation 
quite unstable.
    For many years, India relied on the Soviet Union for its--
for a quasi-strategic alliance. Before that, it had a close 
relationship with the United States in that the United States 
moved with India to counter China.
    This is an aspect of Indian foreign policy that is not 
understood here very much, but for many years, we encouraged 
the Indians and the Indians were with us in--in attempting to 
contain Chinese power.
    And when the 1962 war with--with China occurred, then we 
did supply India with considerable military assistance and even 
helped establish one of their intelligence services.
    Nixon's trip to China in 1969--1970, while important in its 
own right, sent a signal to India that we now no longer 
regarded India as a major partner in Asia, but that we had--in 
a sense were using--were--were relying more on China in terms 
of our strategic containment of the Soviet Union. And from that 
point onward, the Indians have been groping for a new strategic 
place in Asia.
    Our continuing support of China after the--after the end of 
the cold war made it appear to the Indians--I think 
incorrectly, I would say--that we were engaged in a strategic 
relationship, strategic alliance between China, Pakistan--
India's other enemy or their other antagonist--and the United 
States.
    And for many years, the dominant Indian view has been that 
they face a world in which China, the United States and 
Pakistan is--is--is attempting to keep India from emerging as a 
great power.
    Now, I do not think that has been American policy. But we 
have conveyed that impression to the Indians. And therefore 
they have pursued a policy of autarchy both in the nuclear area 
and in terms of developing relations with other countries, 
which they see as necessary to counter this--this large tri-
partite alliance.
    I think that--I agree with your opening remarks in the 
sense that we have to start fresh with India. I do not--I do 
not think it is--it is--I do not think we should think in terms 
of again trying to contain China, with India as an ally.
    We should not think of fighting the Chinese to the last 
Indian. Many Indians still in power today remember the 
experience of 1960, 1961, 1962 and then 1964 where we, in 
effect, withdrew from South--from South Asia. And they do not 
want to be in a position where we are their surrogate in 
dealing with China.
    They understand that militarily they are much inferior to 
China. Economically, they have fallen way behind China. You 
know, both are nuclear weapon states, but China certainly is 
superior in that regard, possibly with our assistance.
    So they are not interested in a strategic alliance with the 
United States against China. In fact, some Indians are--are--
contemplate an alliance with China to keep the--the superpower 
hegemon out of Asia, which I think is an equally--equally 
unlikely prospect.
    As I see the Asian system evolving, it is going to consist 
of a--of a dominant China, a significantly powerful Japan, 
other states along China's periphery, and an India which is 
increasingly capable in its own right, but which is not eager 
to form a close alliance with anybody.
    Our policy in a sense should be to keep our options open, 
maintain a relationship, an engagement with China, but a 
proportionate engagement with India, which is not a China in 
terms of its capabilities but certainly has its own virtues and 
its own values.
    I could talk as my testimony does about the--about the 
misperceptions we have had of India over the past few years, I 
think, systematically putting the non-proliferation issue ahead 
of all other issues and making it appear to the Indians that we 
are trying to disarm them rather than develop them.
    So I--I will not though. That is in the testimony. I do not 
think there is any need to go further than that. Let me stop 
here, I think, and then open myself to questions--to both of 
us.
    Senator Brownback. Thank you both for testifying.
    [The prepared statement of Mr. Cohen follows:]

               Prepared Statement of Dr. Stephen P. Cohen

    Mr. Chairman, members of the Subcommittee:
    I am honored to be invited to testify before this Subcommittee on 
developments in India and their implications for American policy. India 
is a much-neglected country and has been invisible to many American 
policy makers over the past several years. Our neglect has complicated 
our attempt to develop a balanced policy towards what will soon be the 
world's largest country, and has hurt several important American 
interests--including our interest in preventing or slowing the 
horizontal proliferation of nuclear weapons. The detonation of eleven 
nuclear devices in South Asia last May must be counted as one of the 
great failures of recent American policy--all the more so because it 
was foreseeable and preventable.
    While I have specific comments on pending legislation, today I will 
cast a somewhat wider net. It is evident to me, as a student of South 
Asia and US policy towards India and Pakistan for over thirty years, 
that the problems we have had with our regional policy stem in some 
cases from a fundamental misunderstanding of India and Pakistan, and 
the way in which our own policies have shaped--or misshaped--
developments in the region. I will confine myself to three 
miscalculations, each of which have specific implications for American 
policy.
                     india as a revolutionary state
    First, we need to understand that India is a truly revolutionary 
state, in that there are radical changes underway in its domestic 
political and economic order. From about 1989, we have witnessed the 
inauguration, or the intensification of five separate revolutions.

  <bullet> There has been a caste and class revolution, in which 
        hitherto suppressed or disenfranchised Indians have sought a 
        bigger share of the pie, often through the ballot box, but 
        sometimes through the gun.
  <bullet> We have witnessed the lift-off of an economic revolution, 
        hesitant at first, and now perhaps stalled, but a revolution 
        that has widespread support because only through a 
        transformation of the Indian economy can the system deliver the 
        goods to these newly assertive and powerful castes.
  <bullet> India has also seen the beginning of a federal revolution. 
        As new regional ethnic and caste groups achieve power, their 
        first goal is to capture their state government. As is the case 
        in the United States, the party that controls New Delhi may not 
        control the states, and power at the center must be shared 
        between parties who are rivals at the state level.
  <bullet> Led by the Bharatiya Janata Party and its associated social 
        organizations, India is now experiencing an ideological 
        revolution, in which long-established norms and values are 
        being challenged. Again, this can produce shocking acts of 
        violence, as in the case of the recent murder of an Australian 
        missionary and his sons.
  <bullet> Finally, as in many places around the world, India is 
        subjected to the information revolution as ideas and images 
        circulate more freely than ever before. This is accelerated by 
        satellite television and the internet, and cheap travel and 
        growing literacy.

    Three points must be made about these revolutions.
    First, they are being waged largely by peaceful means, contained 
within India's durable and flexible democratic framework. Historically, 
India has seen the repeated transformation of revolutionary movements 
into evolutionary movements, there is no reason to expect that the 
present social tensions, violence, and disorder will not eventually 
subside. More than in any other large non-Western democracy, the ballot 
box is seen as the source of legitimacy.
    Second, these revolutions occur unevenly across India. Some Indian 
states remain backward and poor, others have powerful separatist 
movements. Yet other states have experienced phenomenal growth in 
income, literacy, voter participation, and good government.
    Third, India can give as good as it gets. While Indian 
intellectuals complain about Western cultural imperialism, especially 
the American variety, Indian films, music, novels, and stories are 
pervasive throughout South, Southwest, and even Central Asia, and are 
establishing a toehold in the West. These reflect India's powerful 
culture, adaptiveness, and ability to compete.
               the strategic transformation of south asia
    These social, economic, and cultural revolutions have occurred 
simultaneously with two major foreign policy crises, one in 1987 (the 
so-called ``Brasstacks'' crisis during military exercises) and a second 
in 1990 (a compound crisis involving the Kashmir uprising, nuclear 
threats, and two weak governments). These, in turn, took place just 
before and during rapid changes in the larger international 
environment, especially the decline and fall of the former Soviet 
Union.
    These two regional crises, while real, were misunderstood by many 
Americans. When coupled with the domestic unrest that has grown in 
India (and Pakistan), they conveyed the impression of a region on the 
brink of war--a war that after 1990, could have turned nuclear. There 
were crises, real threats may have been issued, and there were probably 
nuclear weapons available to both sides in 1990, but Indians and 
Pakistanis are not fools, and they learned the lessons of what was 
their own version of the Cuban missile crisis. I am afraid that we have 
not taken seriously, nor looked closely, at the way in which these two 
states have managed to contain disputes, especially Kashmir, which not 
only affect their vital security interests but their very national 
identities.
                   america's influence in south asia
    Finally, the United States has become a significant factor in 
Indian (and Pakistani) strategic calculations. Whether we like it or 
not our laws, our policies, and even our public statements affect their 
views of each other and even of China. Too often, however, we have 
approached the region with a bludgeon, a stick instead of a carrot, 
treating both states as immature and irresponsible. They have made 
serious political and military mistakes in the past, but perhaps no 
more, and no more serious ones, than those committed by other major 
powers, including ourselves.
    Our attempts to legislate their security policy have been doomed to 
fail from the start. No country, when its vital interests are at stake, 
will forego any weapon or any technology. While I strongly believe that 
by going nuclear they may have actually weakened their security, their 
decisions become perfectly sensible, and were predictable, when one 
understands the domestic and strategic context in which they were made. 
Both governments, first Pakistan, now India, have had to conduct 
foreign and security policy while trying to manage a tumultuous 
domestic political situation. In both, foreign policy becomes hostage 
to domestic politics, often driving governments to more extreme 
policies than they would otherwise choose, and neither government has 
yet fine-tuned the principle of bipartisanship in foreign affairs.
            implications for american policy and legislation
    These three sets of American miscalculations (our misunderstanding 
of South Asian political dynamics, our inattention to the region during 
a period of major international change, and our failure to appreciate 
how we can best influence strategic and military decisions) have led to 
a number of specific errors of perception and policy.
    First, our incomprehension of India's domestic revolution led to an 
underappreciation of the way in which domestic politics now influences 
strategic and military decisions. Paradoxically, such decisions as 
adherence to the Comprehensive Test Ban Treaty (CTBT) are both more and 
less important to Indian governments. They are more important because 
this is an issue that could be used to attack a very weak coalition 
government; they are less important because Indians are less interested 
in foreign policy issues than before. If we had developed a broader 
relationship with the Indian people, then such issues as the CTBT, the 
Fissile Material Cutoff Treaty (FMT), restraints on the development of 
nuclear weapons and on further flight-testing of missiles, and 
cooperation on containing the spread of weapons of mass destruction and 
their associated technologies would have been placed in a larger, more 
``normal'' framework. Instead, our single-minded pursuit of the 
proliferation issue made it impossible to expand these other ties, with 
the consequence that we wound up with the worst of both worlds: a 
proliferated India (and Pakistan), and even deeper suspicion about 
economic and strategic ties with the United States.
    Second, our failure to understand the significant changes in India-
Pakistan relations after their two crises, and the simultaneous end of 
the Cold War led us to treat the region as crisis-prone: ``the most 
likely place in the world for a nuclear war.'' Pursuing a one-issue 
agenda, non-proliferation, we turned to China as a partner in South 
Asia. Yet, China has been part of the problem as well as part of the 
solution and our failure to understand China's key role in arming the 
Pakistanis and as a factor in Indian calculations was a serious 
mistake. I agree with our policy of ``engagement'' with China, but that 
did not preclude a similar policy towards India. Instead, our China 
policy looks to Indians very much like an alliance. As for our focus on 
non-proliferation, while well-intentioned it conveyed the impression 
that this was our only regional interest, whereas we have diverse and 
complex interests there.
    Third, we have been trying to conduct a complex diplomacy armed 
only with sticks and stones. Our diplomacy, constrained by restrictive 
and highly specific legislation, had nothing to offer but threats, and 
these failed to work. Inadvertently, we strengthened the hands of the 
anti-American groups in both countries as well as those who sought to 
build and deploy nuclear weapons: they could now argue that India had 
come in the American gunsight, and that they had better arm to protect 
their countries. Conversely, we weakened the standing of the many 
Indians who sought to cooperate with us on important economic, 
strategic, and security issues.
                         toward a fresh start?
    I would strongly urge that the Senate follow two broad paths. 
First, it should move speedily to allow the Executive branch as much 
freedom as necessary on existing economic sanctions and technology 
embargoes. The latter appear to Indians and Pakistanis to be 
discriminatory ``blacklists'' against regional institutions and even 
individuals. Sanctions failed to deter India and Pakistan from moving 
ahead with their nuclear programs, they can be lifted.
    The argument that we have to ``make an example'' of India and 
Pakistan to deter other countries from acquiring nuclear weapons is 
well-intentioned but factually impossible to sustain. While sanctions 
can be a useful tool of diplomacy (and certainly give the impression of 
doing something), they must be evaluated in their application, not in 
their abstract.
    The remaining candidates for nuclear status fall into two broad 
categories, allies and rogues. These allies (for example, Turkey, South 
Korea, and Japan) look to the United States for their security. Our 
commitment to their defense is far more important to them at the moment 
than risking our ire with a nuclear weapons program that may be 
ineffective in any case. The rogues are well known, most are already 
under punitive regimes, some are under the threat of military attack--
and none regard India and Pakistan as a role model.
    Further, neither India nor Pakistan have been ``rogues,'' they are 
vast, complex democracies, struggling primarily with issues of domestic 
reform. This has led them to turn inward, not outward. We want to 
encourage this process, since the major security threats to both 
countries come from within--slow economic growth, illiteracy, 
separatist movements, terrorism, corruption, environmental; 
degradation, extremist ideologies, and most serious of all, incompetent 
governance. I think we can assume that both states will work out for 
themselves the fact that nuclear weapons are of little use against 
these enemies, but we should not underestimate that dangers to 
democracy in both countries, especially Pakistan. In the past India had 
its brief spell of civilian dictatorship and Pakistan has had its long 
periods of military rule. It now seems to be slipping into an elected 
autocracy, intolerant of any autonomous center of power. The Nawaz 
Sharif government has systematically attacked most of the institutions 
needed to sustain a genuine democracy, most recently the press and non-
governmental organizations. This has very serious implications for not 
only our nuclear policy but our larger relationship.
    Second, we need to undertake a comprehensive review of our India 
and Pakistan policy. Right now, we have a nonproliferation policy 
(which has demonstrably failed), we have warm and positive feelings 
towards India (but feelings, no matter how warm, do not make a policy), 
we have the residue of a special relationship with a former ally, 
Pakistan, and we have various special interest groups advocating 
particular goals. These do not add up to a whole. I urge the committee 
to act upon current proposed legislation as a step towards a 
comprehensive review of US policy.
    Having spent two years in the government as a policy planner, I 
know how difficult it is for governments to think more than a few weeks 
or even a few months ahead. Practically speaking, the only time fresh 
thinking takes place is when one administration (or one Congress) 
succeeds another. Without completely giving up hope in the negotiations 
now underway between Strobe Talbott and the lame-duck Indian foreign 
minister, Jaswant Singh, Congress should, as it did in past decades, 
undertake its own review of relations with this one-quarter of the 
world. A multi-year suspension of most sanctions will bring us well 
into the next administration. It is best that such a review be 
undertaken before that administration assumes office so as to assist it 
in conducting its own reexamination of American policy.

    Senator Brownback. Let us--why do we not run the clock at a 
10-minute interval here for Senator Sarbanes and myself, or did 
you want to----
    Senator Sarbanes. Mr. Chairman, I cannot stay. Let me 
simply say that I appreciate your holding this hearing. I think 
the relationship between the United States and India is an 
extremely important one. It is often not given the visibility 
or focus that I think it deserves and requires.
    I think we are in a particularly sensitive time right now 
given the upcoming national elections in India. Although, I 
gather they will be with a caretaker government for a period of 
some months before that occurs.
    Meanwhile, a number of outstanding issues remain 
unresolved. I know people do not want the nuclear proliferation 
issue to dominate the perceptions and I do not quarrel with 
that admonishment.
    On the other hand, nuclear proliferation is an important 
issue, particularly in that part of the world, where India and 
Pakistan seem to be going a tit-for-tat. We are not certain 
where that is going to lead, although the fact that buses are 
going back and forth, might supplant the possibility that 
missiles will go back and forth.
    So, I think it is important to keep, as this hearing was 
labeled, the political and military developments in India in 
our focus. I very much appreciate the testimony of the 
witnesses.
    I am sorry I was not able to get here to hear the Assistant 
Secretary of State, but I will have an opportunity to read his 
statement.
    I apologize to our two witnesses that I need to depart, but 
I think they have some understanding of what congressional 
schedules demand.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Sarbanes, for joining 
us and for--for those comments.
    Mr. Cohen--and I would like, if we could here, so if each 
of you--if you have an answer to what I am putting forward or--
or determine that the question is slightly off the mark, then 
correct the question and answer the best--answer the question 
you would like to because I--I really would like to engage you.
    I wonder, Mr. Cohen and also Ambassador Wisner, how do you 
perceive the Indians have responded or will respond to the Cox 
report that is out today about our nuclear technology and some 
missile guidance information making it to China?
    Mr. Cohen. There is no doubt that they will see this as 
justifying their own nuclear program, that China--and possibly 
accelerating their--their plans to have a much bigger nuclear 
program than they--then the dominant Indian school thinks.
    They have been talking to the--the so-called nuclear 
moderates have been talking about, oh, 80 to 100 nuclear 
weapons. I think that the Cox report will encourage them to go 
further and possibly try to get seaborne--seaborne nuclear----
    Senator Brownback. So you are saying the nuclear 
moderates--is that what your term was?
    Mr. Cohen. Yes. That is you can divide the Indian nuclear 
debate into moderates, extremists, hawks and so forth, very 
much the way our nuclear debate evolved in the fifties.
    And I think that this will be ammunition for those who 
would like to go to the sea for a Triad nuclear deterrent, not 
simply an air deliverable and a missile deliverable capability 
but to build submarines and put missiles on the submarines, 
which has grave implications for America, because a submarine 
possibly could reach the United States.
    In fact, a few Indian strategists have argued that they 
should be able to attack the American--the United States just 
as a way of demonstrating to the U.S. that--that we cannot 
intervene in their region anymore.
    Historically, Indians--Indians still talk about the sailing 
of the U.S.S. Enterprise in the Bay of Bengal or up to the Bay 
of Bengal in 1971 when it was sent there by the administration 
as a way of demonstrating support for Pakistan. This was during 
the India/Pakistan war.
    And from that point onward, they have always regarded it 
necessary--thought--some Indians have thought it necessary to 
acquire a capability of keeping the U.S. or other powers out of 
South Asia.
    The irony is that in 1962, we had--we had sent the 
Enterprise in as a demonstration of American support for India 
against China. And the Indians have sort of selectively 
forgotten that aspect of our--of our intervention in the 
region.
    So I think that the Cox report will encourage the hawks to 
go for a sea-launch system. The economy probably cannot sustain 
it, and the technology would be very difficult for them to--to 
develop, but this is what--that--that is the consequence, I 
think, of the report.
    Senator Brownback. Ambassador.
    Mr. Wisner. I--I would thoroughly agree with Dr. Cohen's 
assessment that India will regard the information contained in 
the Cox report as proof positive of their deep concerns that 
China has had unique and special access to American military 
technology and that this is to India's detriment and that India 
has to take that into account in terms of the way she 
constructs her national defense system.
    It will not enhance confidence in the United States, the 
Cox report. It will take time for India to think through why 
the volume of information made its way to Chinese hands without 
the United States being able to enforce its own procedures and 
laws.
    How far the Indians will go in responding physically is 
another issue. There are real constraints on Indian resources, 
Indian technology to develop a nuclear system, but there--the 
debate will be activated, as Dr. Cohen points out, by the Cox 
report.
    I would add, though, that this puts a special challenge 
before the United States. What do we do as a result of the--our 
anticipated--or our assessment of where India will be headed.
    And I think that it is of critical importance that we 
engage the Indians on the question of China more deeply than we 
have been able to engage her in the past.
    I start out, as my testimony said, exactly where Professor 
Cohen is and that is that the Asia of the future is a careful 
balance of power, where China, Japan, Russia, India, the United 
States are the principal actors in keeping peace in the area; 
and that our ability to communicate with each of the players is 
very, very important.
    Our ability to communicate with India on issues of direct 
national security importance means we have to talk about China.
    We have to talk frankly at a high level about our 
assessments of Chinese intentions, our reading of where China 
is and where China is headed. It does not necessarily mean 
violating the time-honored rule of ``friends on friends,'' but 
it means being a lot franker with the Indians about where we 
see China. We should also urge China to engage India at the 
same time. If not the Indian suspicions of China, borne of the 
history, will aggravate Asian tensions. And we have to keep 
that very much in mind and try to tamp those down by engaging 
ourselves diplomatically with the several governments, notably 
China and India.
    Senator Brownback. But I mean, clearly we have not engaged 
India near to the degree that we have China and Russia, by--by 
any stretch of the imagination. I do not think anybody could 
assert that we have--we have engaged them equally as China or 
Russia. And clearly, it is time to do it.
    But I am--I am curious if both of you then feel that 
actually the Cox report will stir up more suspicion toward the 
United States and less willingness on the part of the next 
Indian Government to engage with the United States on a 
broader-based dialog; or will it cause them more to retract, 
engage more to Russia for strategic weapons technology?
    Mr. Wisner. Well, I think it will depend importantly, 
Senator, on the actions that we take. Our communications with 
the parties in and out of power during this transitional period 
and the way we move as soon as there is a new Indian Government 
in place in the latter part of October.
    We--we will--we must be on--we must take a step forward and 
India will be looking--looking for us to do so.
    Mr. Cohen. Now, I think that some Indians will--will argue 
that the Cox--that the leakage of American nuclear technology 
to China was no accident, that we deliberately helped the 
Chinese in order to continue to encircle India. I think that is 
paranoid, but that interpretation will be heard.
    More likely in the more dominant view of India is that the 
United States is here to stay, that we are not going to be a 
declining super power, and that we are not going to soon have a 
world of--of eight or ten equal size states, that there will be 
seven or eight major states, but the United States will be 
clearly the major power for the next 10, 15 years, at least; 
and that the dominant view in Delhi was--will be that they do 
have to talk to the United States. They will get over the Cox 
report.
    I think the paranoid interpretation of U.S./China relations 
will diminish, because, in fact, while I think we have bent 
over backward, perhaps too far backward, to deal with the 
Chinese on all issues, that we have, in fact, imposed 
technology restraints on China, at least some, and that--and I 
think our attitude toward China is changing to a more balanced 
view of--of the Chinese.
    Senator Brownback. Well, I think those are wise words that 
I hope we convey as well and get to the administration, that 
during this time period when you have got an election and that 
the Cox report is out, that we have a lot of high-level 
discussions with the Indians about--about the nature of this 
and about our nature of relationship with China and with 
Russia. I think it is a very important time for us to broaden.
    I might ask each of you--it has been my assertion--you 
heard me question Secretary Inderfurth that--that we have built 
the entire U.S./India relationship right now at least on the 
official level on CTBT.
    I--I think that--that is far too narrow for us and, indeed, 
in light of the Cox report and some other things, I would think 
that the Indian Government would say, ``We will talk about 
that, but we cannot do this now with the type of technology now 
that we know that China has.''
    What do you think--how are they going to respond to our 
negotiations on CTBT in light of the Cox report?
    Mr. Cohen. Well, I think the CTBT has been dead in the 
water for some time. And I think--I was never very optimistic 
that it would get through either country. Certainly, it has its 
difficulties here.
    And I think that the Indians have a good excuse not to move 
ahead on the CTBT. And I think by pursuing the issue for too 
long a period of time and, in fact, urging the Indians to sign 
not only the CTBT but the Non-Proliferation Treaty in a sense 
to renounce their nuclear weapons that they have developed, I 
think we--we have wasted our time. And we should have, in a 
sense, gotten off a--an obsession with treaty adherence to a 
broader dialog.
    I think we might have gotten adherence to the CTBT had we 
had a broader relationship with India 3, 4, 5 years ago. And I 
think our diplomacy then in particular was so treaty-focused 
that it--it just--and then we tried to use--well, I--I think--I 
think it was a failure of understanding.
    Let me also add that I think that India may not be quite 
ready for a dialog with the United States. As I have tried to 
indicate in my remarks, India's security problems broadly 
conceived are mostly domestic.
    While they do have a problem with Pakistan and they 
certainly see themselves as a long-term rival with China, it is 
a society under tremendous internal turmoil, social, economic, 
political change, ideological change.
    And it is hard for a country in that--going through these 
simultaneous revolutions to think consistently or clearly for 
very long about foreign policy.
    One thing that is happening is that power is devolving to 
the states. And as in the United States, the--the states have 
different interests than the center. And we are going to have 
to figure out a way of dealing with all of India and not simply 
with a very small group of people in New Delhi.
    And as Rick Inderfurth said, we are going to have to 
continue to expand our ties with all elements of Indian society 
as the Indians are trying to develop their ties with--with 
Americans. And I think that economic ties are perhaps the most 
efficient way of doing that.
    I was part of an Asian Society study group of several years 
ago, and we used the term ``ballast'' for the importance of 
economics; that a good economic relationship would provide a 
ballast between--in the relationship, overall relationship 
between the U.S. and India.
    And here the obstacle is India. It is not the United 
States. Indians are reluctant to move quickly in terms of 
reforming, opening their economy.
    And although the--although--progress is steady, but it is 
very slow. And as that moves ahead, I think our other--it 
will--it will have an impact on our other political and 
strategic relations as well.
    Mr. Wisner. Senator, I am going to part company with Dr. 
Cohen on the issue of CTBT in one regard, and that is that I am 
not as pessimistic as he is about CTBT's--the--the fate of CTBT 
in Indian hands.
    I took very careful note of what Prime Minister Vajpayee 
said last September before the general assembly, the commitment 
he made to move in the direction of reaching an agreement on 
CTBT.
    And I have taken heart from the diplomacy that has been 
conducted that led us virtually on the eve of the fall of this 
government to a prospect that the Indian Parliament would 
debate with the view to seeking adherence.
    I cannot predict exactly how the matter will come out, but 
I have sensed a determination on the part of the outgoing 
Vajpayee government to try to find a way to associate itself 
with CTBT, and we had hoped it could happen by September.
    If it happens after September, I believe there are terrific 
benefits for India. She will strengthen her diplomacy.
    She has already sent a signal of her nuclear capability for 
the United States and for the world to put some boundary 
markers around the nuclear testing issue.
    As India's own scientists have pointed out, the further 
tests are not necessary with respect to the Indian nuclear 
deterrent.
    Now, that said, where I strongly agree with both you and 
Dr. Cohen is that CTBT and the treaties, if you will, have had 
much too high a profile in our relationship and that that has a 
counterproductive feature.
    Dr. Cohen used the argument that our very insistence on NPT 
adherence and CTBT adherence gave the impression the United 
States' purpose was to disarm India, to weaken her. And that 
view is deeply rooted in--among thinking in Indians across the 
board.
    I would argue that the contrary is true. And that is if we 
had succeeded earlier on in making it clear that we had a stake 
in Indian security, that that was rooted in our view of peace 
and stability in Asia, that we had a broader relationship in 
which we are engaged with the Indians in multiple ways, 
including in the exchange of intelligence assessments, then the 
stage would have been set for an easier dialog over CTBT, not 
the other way around.
    And I, again, obviously appreciate the line you have taken, 
Senator, in trying to put now the horse before the cart. And I 
think that is really where we ought to be headed as we face 
into a new Indian Government.
    Senator Brownback. Let me ask each of you a final question.
    Mr. Wisner, you talked about having an even keel in the 
relationship between China and India.
    And, Dr. Cohen, you have spoken in some terms of a South 
Asia or an Asia/China/India/Russia balance, not necessarily a 
strategic use or playing off of India versus China.
    If--if you each would have looked down the road 5 to 10 
years of--and--and the best case scenario came out in South 
Asia, what would that relationship look like between the United 
States, China, India and, I might put in Russia, if you deem it 
good?
    Where would the best place for us be to head in how we 
relate between those various countries in that region?
    Mr. Wisner. Well, I feel that as history has dictated many 
times over the past several hundred years since the emergence 
of nation states, that the safest condition for all of us is in 
a balance of power.
    That does not mean that the United States picks favorites 
or condones the domestic systems of states abroad but that we 
recognize the need to maintain strong relationships with 
nations who have--in whose future and who have a serious 
capacity to affect the security of a major region, Asia in 
particular.
    Now, what are those nations? China, India, Russia, Japan, 
the United States, for we are an Asian power. We are the most 
important security presence in Asia.
    Where Dr. Cohen made, I thought, a very sound point is that 
we do not have to choose between one or another, but to engage 
equally with all and to preserve an American flexibility to 
join with a group of nations. If one of the nations in the 
concert that can provide peace and stability acts out of--out 
of line, threatens the balance, the United States can help 
create a coalition to rebalance the equation without formal 
alliances, which the Indians would shy away from.
    Without compromising engagements, the United States can 
through its diplomacy and engagement create--recreate a sense 
of balance.
    I would think it would be a tragedy, that we emerge with a 
view that the right way to pursue the Indian relationship is to 
downgrade our China relationship. I certainly do not argue 
that. I believe engagement with China is in the vital interest 
of the United States. It happens also to be good for India.
    We have an opportunity now to move ahead on the WTO front, 
to bring China into the WTO and create world blessed set of 
rules to govern trade with China.
    I believe that--I hope very much that the Senate will 
support China's WTO accession I would hope for an evenhanded 
approach with each of the major Asians and, indeed, others.
    I think the way to look at Asia in the future, in the next 
century, is that the United States is part of a very delicate 
arrangement to maintain balance. If that balance is maintained, 
then your best chance exists for the continuation of peace and 
security.
    Senator Brownback. Mr. Cohen.
    Mr. Cohen. I certainly agree with--with the analysis. I 
would say that it has to be a balance, not only of military 
power but of, in a sense, economic and cultural power. The 
major states should be accorded the kind of dignity and respect 
that they feel they should have.
    India, in particular, has been, I think, undervalued by us 
and by some--some other countries in the world.
    I would say that we also have a common interest, not only 
in averting war between the--these--the major states of Asia, 
and we are--we are an Asian power, but we have a shared 
interest in averting the spread of nuclear weapons.
    This is--should be an interest of India's as much as ours. 
They do not want to see Bangladesh with a nuclear weapon or--or 
central Asian states busting out with nuclear weapons.
    And we also have a shared interest in managing the regions 
or the states of--of Asia, which are going to fail or which are 
going to be in deep trouble and which could, by--by splitting 
apart could cause chaos among them.
    I would say that Pakistan is--is at the top of that list in 
South Asia. Pakistan is a country that has consistently 
underachieved and is now in a--in a--in a state that is neither 
democratic or a dictator--dictatorship. It seems to be ignoring 
its own fundamental obligations to its own people.
    And this--this first of all would affect India. A splitting 
apart of Pakistan, a nuclear armed Pakistan would have 
tremendous consequences for India itself.
    So we have an interest in this. The Chinese have an 
interest in this. The--and the Indians have an interest in--in 
managing a relationship with Pakistan to hopefully keep 
Pakistan democratic and free and stable.
    And there are other--other countries in the region, 
especially in Central Asia, which have that prospect as well. 
So I would say that there is a shared interest not only in 
balancing each others' power off, but in helping to manage Asia 
as a whole.
    And--and the Indians in particular should be at the 
forefront of searching out for other countries with shared--
these shared interests, because they are the ones who would be 
hurt the most, should some of these events take place.
    Senator Brownback. Both of you have excellent thoughtful 
comments, very--very provocative, very carefully stated and 
obviously yielded from years of experience and work in the 
region and with India.
    Thank you for being here. If there are any additional 
comments that you wanted to submit to the record, we would 
certainly be willing to receive those. And I deeply appreciate 
your thoughtfulness and your willingness to share that with the 
committee.
    The hearing is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
